No.
In the
Supreme Court of the United States
CARLOS AMEZCUA, Petitioner
v.
JOE A. LIZARRAGA, Respondent

On Petition for Writ of Certiorari to the United States Court of
Appeals for the Ninth Circuit
19-55910
VOLUME OF APPENDICES IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI

Charles R. Khoury Jr.
P.O. Box 791
Del Mar, California, 92014
State Bar Nr. 42625
Telephone: (858) 764-0644
Fax: (858) 876-1977
charliekhouryjr@yahoo.com
Attorney for Petitioner

APPENDIX A

Ninth Circuit MEMORANDUM OPINION

APPENDIX B

NINTH CIRCUIT ORDER DENYING
PETITION FOR REHEARING

APPENDIX C

ORDER OF THE DISTRICT COURT
DENYING PETITION BUT GRANTING
CERTIFICATE OF APPEALABILITY

APPENDIX D

STATE COURT APPELLATE DECISION

APPENDIX E

CIVIL DKT FOR DISTRICT COURT AND
NINTH CIRCUIT

APPENDIX A
NINTH CIRCUIT MEMORANDUM
OPINION

Case: 19-55910, 04/16/2021, ID: 12076668, DktEntry: 48-1, Page 1 of 2

FILED
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

APR 16 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT

CARLOS AMEZCUA,

No.

Petitioner-Appellant,

19-55910

D.C. No.
3:18-cv-01317-GPC-MSB

v.
JOE A. LIZARRAGA, Warden; XAVIER
BECERRA,

MEMORANDUM*

Respondents-Appellees.

Appeal from the United States District Court
for the Southern District of California
Gonzalo P. Curiel, District Judge, Presiding
Submitted April 14, 2021**
Pasadena, California
Before: M. SMITH and IKUTA, Circuit Judges, and STEELE,*** District Judge.

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).
***

The Honorable John E. Steele, United States District Judge for the
Middle District of Florida, sitting by designation.

Case: 19-55910, 04/16/2021, ID: 12076668, DktEntry: 48-1, Page 2 of 2

California prisoner Carlos Amezcua appeals the district court’s denial of his
habeas petition under 28 U.S.C. § 2254. We have jurisdiction pursuant to
§ 2253(a) and affirm.
Because “a state court’s interpretation of state law, including one announced
on direct appeal of the challenged conviction, binds a federal court sitting in habeas
corpus,” Bradshaw v. Richey, 546 U.S. 74, 76 (2005) (per curiam), we are bound
by the California Court of Appeal’s conclusion that Amezcua’s extrajudicial
statements to the police were admissible at trial under California’s corpus delicti
rule. Therefore, the California Court of Appeal’s rejection of Amezcua’s claim
that there was insufficient evidence to uphold his convictions for counts 7, 9 and
10 was not contrary to Jackson v. Virginia, 443 U.S. 307, 319 (1979).
AFFIRMED.

2

APPENDIX B
NINTH CIRCUIT ORDER DENYING
PETITION FOR REHEARING

Case: 19-55910, 06/25/2021, ID: 12154314, DktEntry: 52, Page 1 of 1

FILED
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CARLOS AMEZCUA,
Petitioner-Appellant,
v.

No.

JUN 25 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

19-55910

D.C. No.
3:18-cv-01317-GPC-MSB
Southern District of California,
San Diego

JOE A. LIZARRAGA, Warden; XAVIER
BECERRA,
ORDER
Respondents-Appellees.

Before: M. SMITH and IKUTA, Circuit Judges, and STEELE,* District Judge.
The panel has unanimously voted to deny appellant’s petition for panel
rehearing, filed on June 1, 2021. Judge M. Smith and Judge Ikuta voted to deny
the petition for rehearing en banc and Judge Steele so recommended. The petition
for rehearing en banc was circulated to the judges of the court, and no judge
requested a vote for en banc consideration.
The petition for rehearing and rehearing en banc (Dkt. 51) are DENIED.

*

The Honorable John E. Steele, United States District Judge for the
Middle District of Florida, sitting by designation.

APPENDIX C
ORDER OF THE DISTRICT COURT
DENYING HABEAS PETITION BUT GRANTING
CERTIFICATE OF APPEALABILITY

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.908 Page 1 of 40

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

SOUTHERN DISTRICT OF CALIFORNIA

10
11

CARLOS AMEZCUA,

Case No.: 18cv1317 GPC (MSB)
Petitioner,

12

ORDER:

13
14

v.

(1) DENYING PETITION FOR WRIT
OF HABEAS CORPUS and

JOE A. LIZARRAGA, Warden,

(2) GRANTING CERTIFICATE OF
APPEALABILITY IN PART AND
DENYING IN PART

15
16
17

Respondent.

18
19

I.

INTRODUCTION
Petitioner Carlos Amezcua (Petitioner” or “Amezcua”), a state prisoner proceeding

20
21

pro se, has filed a Petition for Writ of Habeas Corpus pursuant to 28 U.S.C. § 2254,

22

challenging his San Diego Superior Court conviction in case number SCD258616 for six

23

counts of lewd and lascivious acts on a child under 14 years of age. (Pet. at 1, ECF No. 1

24

“Pet.”)1 The Court has reviewed the Petition, the Answer and Memorandum of Points

25

and Authorities in Support of the Answer, the lodgments, and all the supporting

26
27
1

28

Page numbers for docketed materials cited in this Report and Recommendation refer to those
imprinted by the court’s electronic case filing system.
1
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.909 Page 2 of 40

1

documents submitted by both parties. For the reasons discussed below, the Court the

2

Petition is DENIED.

3

II.

4

FACTUAL BACKGROUND
This Court gives deference to state court findings of fact and presumes them to be

5

correct; Petitioner may rebut the presumption of correctness, but only by clear and

6

convincing evidence. See 28 U.S.C. § 2254(e)(1) (West 2006); see also Parke v. Raley,

7

506 U.S. 20, 35-36 (1992) (holding findings of historical fact, including inferences

8

properly drawn from those facts, are entitled to statutory presumption of correctness).

9

The following facts are taken from the California Court of Appeal opinion:

10
11
12
13
14
15

This case involves Amezcua’s molestation of two female relatives
when they were young girls, Jane Doe 1 and Jane Doe 2.
The molestation first came to light when Jane Doe 1, who was 22
years old at the time of trial, disclosed to a relative that Amezcua had
molested her when she was eight years old. Family members confronted
Amezcua about the allegations, and he admitted to having molested Jane
Doe 1. He also disclosed to family members that he had molested Jane Doe
2, who was 13 years old at the time of trial.

16
17
18
19
20
21
22
23
24
25
26
27
28

In an interview with police that was video-recorded and played for the
jury at trial, Amezcua admitted to molesting Jane Doe 1 and Jane Doe 2 and
described the details of the molestations.
As to Jane Doe 1, Amezcua told police that on at least three occasions
when Jane Doe 1 was eight or nine years old, he rubbed her buttocks and
vagina while cuddling with her. In addition, Amezcua recalled one occasion
when he put Jane Doe 1’s hand on his penis for a few seconds. As to Jane
Doe 2, Amezcua stated that he started touching Jane Doe 2 on the buttocks
and vagina over her clothing when she was approximately seven years old.
According to Amezcua, he touched Jane Doe 2 in that manner “a few times”
when he lived at a residence in Riverside County, including one instance
during which he touched Jane Doe 2’s bare skin beneath her underwear.
Amezcua also stated that later, when he moved to San Diego and Jane Doe 2
was approximately 10 years old, he touched Jane Doe 2’s buttocks and
vagina on one occasion over her clothes. Amezcua told police that he was
“aroused” during the molestation of the two girls, but he claimed that he
never had an erection.
2
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.910 Page 3 of 40

1

Amezcua was charged with five counts of committing lewd acts
against Jane Doe 1 (counts 1–5) and seven counts of committing lewd acts
against Jane Doe 2 (counts 6–12). (§ 288, subd. (a).) The information
described the acts that gave rise to each count. As to the counts concerning
Jane Doe 2, three of them were alleged to have taken place at Amezcua’s
San Diego residence and four of them at his Riverside County residence.
Counts 6, 9, 10, 11 and 12 were based on allegations that Amezcua touched
Jane Doe 2’s vagina. Counts 7 and 8 alleged a touching of Jane Doe 2’s
buttocks and Jane Doe 2’s chest, respectively.

2
3
4
5
6
7

Jane Doe 1 testified that when she was eight years old, Amezcua
molested her in the same manner on six or seven occasions. Specifically, on
each occasion Amezcua would rub Jane Doe 1’s clitoris beneath her
underwear, touch her breasts and put her hand on his erect penis over his
clothes. On one occasion Amezcua also put his mouth on Jane Doe 1’s
breast and licked her nipple. According to Jane Doe 1, Amezcua suggested
that she not tell anyone about the molestation.

8
9
10
11
12
13

Jane Doe 2 testified that when she was 11 or 12 years old Amezcua
molested her on two occasions, and both occurred at his residence in San
Diego. According to Jane Doe 2, Amezcua touch her vagina on only one
occasion. Specifically, Jane Doe 2 stated that on that occasion, Amezcua
caressed her arms and touched her vagina with a “slight tap” over her
clothes. On the second occasion, Amezcua caressed her arm and also
touched her chest near her collarbone but did not touch her vagina. When
the prosecutor followed up with Jane Doe 2 about whether Amezcua touched
her vagina on a second occasion, Jane Doe 2 reiterated that Amezcua did
not. When the prosecutor followed up as to whether Amezcua had molested
Jane Doe 2 on more than two occasions, Jane Doe 2 stated that there was no
third occasion on which Amezcua molested her. Jane Doe 2 testified that
Amezcua told her not to tell anyone about the molestation.

14
15
16
17
18
19
20
21
22

Amezcua testified at trial. He stated that he had touched Jane Doe 1
as he described during his police interview, but stated that it was done in a
“playful” manner and that he did not touch her to become sexually aroused.
He denied that he ever directly touched Jane Doe 1’s clitoris underneath her
clothes and claimed that the only time Jane Doe 1 touched his penis was by
accident when he was picking her up.

23
24
25
26
27

///

28

///
3
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.911 Page 4 of 40

1

As to Jane Doe 2, Amezcua testified that he touched her on only two
occasions, stating “I remember two situations with [Jane Doe 2], just two
situations.” Although Amezcua provided sparse detail during his testimony
about the ways in which he touched Jane Doe 2 on those two occasions, he
did admit that he touched Jane Doe 2’s vagina on one occasion at his San
Diego residence.

2
3
4
5

Later in his testimony, Amezcua admitted that he touched Jane Doe
2’s vagina at the Riverside County residence. On that subject the following
testimony was presented at trial when the prosecutor asked Amezcua about a
description of the molestation at the Riverside County residence that
Amezcua had given to police:

6
7
8
9

“[Prosecutor]: Do you remember the detective asking you, can
you tell me what happened with [Jane Doe 2]? And then you
replied, ‘It was again, cuddling, playing. I noticed that -- uh, see
if I could touch her, and I did. In the back again, start . . . in the
rear end and rubbed her thighs and again in her private part.’
You reference that section of your interview. Would it be fair
to say that that instance of the touching was not an accident?

10
11
12
13
14
15

“[Amezcua]: Yes, it was not an accident.

16

“[Prosecutor]: You did it on purpose?

17
“[Amezcua]: Yes.”

18
19

[Footnote 2: Earlier in his testimony Amezcua also seemed generally
admit to this same molestation at his Riverside County residence
when the prosecutor asked him about his statements to police about
that incident.

20
21
22

Prosecutor: You told the detective you were playing piggyback
or goofy games and that you and touched her – and this was at
the [Riverside County] house – you touched her on her vagina
on that occasion.

23
24
25

[Amezcua]: I think so.

26
27

///

28

///
4
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.912 Page 5 of 40

1

[Prosecutor]: And then they asked you how many more times it
happened. You said three more times at the [Riverside County]
house’ is that correct?

2
3

[Amezcua]: I remember two situations with [Jane Doe 2], just
two situations.]

4
5

Amezcua also testified that he did not touch Jane Doe 2 with any
sexual intent and did not consider himself to be a child molester because he
had no desire to penetrate either of the girls or to have sex with them.
Although admitting that he told the police that he was “aroused” during the
molestations, he tried to minimize that statement during his trial testimony
by claiming that “[i]t was aroused in the sense of thinking, I shouldn’t be
doing this” and it “wasn’t related to . . . sexual desire.”

6
7
8
9
10
11

(Lodgment No. 6 at 2-7, ECF No. 7-10.)

12

III.

13

PROCEDURAL BACKGROUND
On March 30, 2015, the San Diego District Attorney’s Office filed an information

14

charging Amezcua with twelve counts of committing a lewd act upon a child under the

15

age of fourteen, pursuant to California Penal Code section 288(a). (Lodgment No. 1,

16

Clerk’s Tr. at 24-26, ECF No. 7-1.) Five counts involved Petitioner’s conduct with Jane

17

Doe 1 between April 11, 2001 to April 11, 2003 (counts 1–5); three counts involved his

18

conduct with Jane Doe 2 between October 16, 2011 and October 16, 2013 (counts 6–8);

19

and four counts were related to conduct with Jane Doe 2 between October 16, 2009 and

20

October 16, 2011 (counts 9–12). (Id. at 26-32.)

21

As to counts one through six and nine through twelve, it was further alleged that

22

Amezcua committed the offenses against more than one victim and had substantial sexual

23

conduct with a victim under 14 years of age, pursuant to California Penal Code sections

24

1203.066(a)(7) and (a)(8). (Id. at 26-31.) As to all counts it was also alleged that

25

Petitioner committed the offenses against more than one victim, under California Penal

26

Code sections 667.61(b), (c) & (e). (Id.)

27
28

Jury trial began on August 26, 2015. (Id. at 247.) On September 1, 2015, after the
close of evidence, defense counsel moved for a judgment of acquittal as to all counts,
5
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.913 Page 6 of 40

1

under California Penal Code section 1118.1.2 (Lodgment No. 2, Rep.’s Tr. vol. 2 at 18-

2

22, ECF No. 7-3.) The trial court granted Amezcua’s motion to dismiss the section

3

1203.066(a)(8) allegation as to count six and denied the motion as to all other counts.

4

(Id. at 26.) The jury began deliberations on September 1, 2015. (See Lodgment No. 1,

5

Clerk’s Tr. at 256, ECF No. 7-1.)

6

On September 8, 2015, the jury returned guilty verdicts on counts two, four, six,

7

seven, nine and ten. (Id. at 170-79.) The jury further found true the section

8

1203.066(a)(7) allegations attached to counts two, four, six, nine and ten. (Id. at 170,

9

172, 174, 176, 178.) The jury also found the section 667.61 allegations to be true. (Id. at

10

170-79.) The jury deadlocked on counts one, three, five, eight, eleven and twelve.

11

(Lodgment No. 2, Rep.’s Tr. vol. 3, at 41-43, ECF No. 7-4; see also Lodgment No. 1,

12

Clerk’s Tr. at 268-69, ECF No. 7-1.) The trial court declared a mistrial on those counts

13

and they were later dismissed on the prosecutor’s motion. (Lodgment No. 2, Rep.’s Tr.

14

vol. 3 at 42, ECF No. 7-4; see also Lodgment No. 1, Clerk’s Tr. at 272, ECF No. 7-1.)

15

On December 16, 2015, the trial court sentenced Amezcua to 45 years to life in prison.3

16

(Lodgment No. 1, Clerk’s Tr. at 218-19, 277-79, ECF No. 7-1.)

17

///

18
19
20

2

In a case tried before a jury, the court on motion of the defendant or on its own
motion, at the close of the evidence on either side and before the case is submitted to the
jury for decision, shall order the entry of a judgment of acquittal of one or more of the
offenses charged in the accusatory pleading if the evidence then before the court is
insufficient to sustain a conviction of such offense or offenses on appeal.

21
22
23
24
25
26
27
28

Section 1118.1 states:

Cal. Penal Code § 1118.1.
3

The court sentenced Petitioner to an indeterminate term of 15 years to life on count two; a
determinate upper term of eight years on count four, to run concurrently; an indeterminate term of 15
years to life on count six, to run consecutively; an indeterminate term of 15 years to life on count seven,
to run concurrently; an indeterminate term of 15 years to life on count nine, to run consecutively; and an
indeterminate term of 15 years to life on count ten, to run concurrently. (Lodgment No. 1, Rep.’s Tr vol.
5 at 12-13, ECF No. 7-6; see also Lodgment No. 1, Clerk’s Tr. at 218-19, 277, ECF No. 7-1.)
6
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.914 Page 7 of 40

1

Amezcua appealed his conviction to the California Court of Appeal. (See

2

Lodgment No. 3, ECF No. 7-7.) On appeal, Petitioner argued that (1) his convictions on

3

counts six, seven, nine and ten should be reversed because they were not supported by

4

substantial evidence, (2) all counts related to Jane Doe 2 should be reversed because there

5

was insufficient evidence to establish the requisite specific intent, (3) the prosecutor

6

committed misconduct during closing argument, and (4) trial counsel was ineffective.

7

(See id.) On March 10, 2017, the California Court of Appeal affirmed Petitioner’s

8

convictions in a reasoned opinion. (See Lodgment No. 6, ECF No. 7-10.)

9

Amezcua then filed a petition for review in the California Supreme Court, raising

10

the same claims he presented to the appellate court. (See Lodgment No. 7, ECF No. 7-

11

11.) The court denied the petition on June 15, 2017, without comment or citation. (See

12

Lodgment No. 8, ECF No. 7-12.)

13

On June 18, 2018, Amezcua, proceeding pro se, filed a petition for writ of habeas

14

corpus pursuant to 28 U.S.C. § 2254 in this Court. (See Pet., ECF No. 1.) On August 31,

15

2018, Respondent filed an Answer, a Memorandum of Points and Authorities in Support

16

of the Answer and Lodgments of the state court records. (See ECF Nos. 6 & 7.)

17

IV.

SCOPE OF REVIEW

18

Amezcua’s Petition is governed by the provisions of the Antiterrorism and

19

Effective Death Penalty Act of 1996 (“AEDPA”). See Lindh v. Murphy, 521 U.S. 320

20

(1997). Under AEDPA, a habeas petition will not be granted unless the adjudication: (1)

21

resulted in a decision that was contrary to, or involved an unreasonable application of

22

clearly established federal law; or (2) resulted in a decision that was based on an

23

unreasonable determination of the facts in light of the evidence presented at the state

24

court proceeding. 28 U.S.C. § 2254(d); Early v. Packer, 537 U.S. 3, 8 (2002).

25

A federal court is not called upon to decide whether it agrees with the state court’s

26

determination; rather, the court applies an extraordinarily deferential review, inquiring

27

only whether the state court’s decision was objectively unreasonable. See Yarborough v.

28

Gentry, 540 U.S. 1, 4 (2003); Medina v. Hornung, 386 F.3d 872, 877 (9th Cir. 2004). In
7
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.915 Page 8 of 40

1

order to grant relief under § 2254(d)(2), a federal court “must be convinced that an

2

appellate panel, applying the normal standards of appellate review, could not reasonably

3

conclude that the finding is supported by the record.” See Taylor v. Maddox, 366 F.3d

4

992, 1001 (9th Cir. 2004).

5

A federal habeas court may grant relief under the “contrary to” clause if the state

6

court applied a rule different from the governing law set forth in Supreme Court cases, or

7

if it decided a case differently than the Supreme Court on a set of materially

8

indistinguishable facts. See Bell v. Cone, 535 U.S. 685, 694 (2002). The court may grant

9

relief under the “unreasonable application” clause if the state court correctly identified

10

the governing legal principle from Supreme Court decisions but unreasonably applied

11

those decisions to the facts of a particular case. Id. Additionally, the “unreasonable

12

application” clause requires that the state court decision be more than incorrect or

13

erroneous; to warrant habeas relief, the state court’s application of clearly established

14

federal law must be “objectively unreasonable.” See Lockyer v. Andrade, 538 U.S. 63, 75

15

(2003). “[A] federal habeas court may not issue the writ simply because that court

16

concludes in its independent judgment that the relevant state-court decision applied

17

clearly established federal law erroneously or incorrectly. Rather, that application must

18

also be unreasonable.” Williams v. Taylor, 529 U.S. 362, 411 (2000). “A state court’s

19

determination that a claim lacks merit precludes federal habeas relief so long as

20

‘fairminded jurists could disagree’ on the correctness of the state court’s decision.”

21

Harrington v. Richter, 562 U.S. 86, 101 (2011) (quoting Yarborough v. Alvarado, 541

22

U.S. 652, 664 (2004)).

23

Where there is no reasoned decision from the state’s highest court, the Court

24

“looks through” to the underlying appellate court decision and presumes it provides the

25

basis for the higher court’s denial of a claim or claims. See Ylst v. Nunnemaker, 501 U.S.

26

797, 805-06 (1991). If the dispositive state court order does not “furnish a basis for its

27

reasoning,” federal habeas courts must conduct an independent review of the record to

28

determine whether the state court’s decision is contrary to, or an unreasonable application
8
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.916 Page 9 of 40

1

of, clearly established Supreme Court law. See Delgado v. Lewis, 223 F.3d 976, 982 (9th

2

Cir. 2000) (overruled on other grounds by Andrade, 538 U.S. at 75-76); accord Himes v.

3

Thompson, 336 F.3d 848, 853 (9th Cir. 2003). However, a state court need not cite

4

Supreme Court precedent when resolving a habeas corpus claim. See Early, 537 U.S. at

5

8. “[S]o long as neither the reasoning nor the result of the state-court decision contradicts

6

[Supreme Court precedent,]” id., the state court decision will not be “contrary to” clearly

7

established federal law. Id. Clearly established federal law, for purposes of § 2254(d),

8

means “the governing principle or principles set forth by the Supreme Court at the time

9

the state court renders its decision.” Andrade, 538 U.S. at 72.

10
11

V.

DISCUSSION
Amezcua raises four grounds for relief. In both claims one and two, he argues his

12

convictions on counts six, seven, nine and ten were based on insufficient evidence, in

13

violation of his right to due process. (Pet. at 6-7, ECF No. 1.) In ground three, Petitioner

14

argues that the prosecutor misstated the law during closing argument, in violation of his

15

due process rights. (Id. at 8.) Finally, in ground four, Amezcua contends that counsel

16

was ineffective in failing to object to the prosecutor’s purportedly improper closing

17

argument, in violation of his Sixth Amendment rights. (Id. at 9.)

18

Respondent argues that ground one is not cognizable on federal habeas and that

19

ground three is procedurally defaulted. (See Mem. P. & A. Supp. Answer at 10-11, 14,

20

ECF No. 6-1.) Respondent further argues that Amezcua’s remaining claims are without

21

merit because the state court’s denial of them was neither contrary to, nor an

22

unreasonable application of, clearly established law. (See id. at 11-16.) For ease of

23

analysis, the Court will address Petitioner’s claims in a different order than presented in

24

the Petition.

25

A.

26

Amezcua contends that his convictions on counts six, seven, nine and ten were

Sufficiency of Evidence: Specific Intent (ground two)

27

based on insufficient evidence to support a finding that he touched Jane Doe 2 with the

28

requisite specific intent. (Pet. at 7, ECF No. 1.) Respondent argues that the state court’s
9
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.917 Page 10 of 40

1

denial of the claim was neither contrary to, nor an unreasonable application of, clearly

2

established federal law. (Mem. P. & A. Supp. Answer at 11-13, ECF No. 6-1.)

3

1.

State Court Decision

4

As noted above, Amezcua raised this claim in his petition for review to the

5

California Supreme Court. (See Lodgment No. 7, ECF No. 7-11.) The court denied the

6

petition without comment or citation. (Lodgment No. 8, ECF No. 7-12.) As such, this

7

Court looks through to the last reasoned state court opinion, that of the California Court

8

of Appeal. See Ylst, 501 U.S. at 805-06.

9

The appellate court denied the claim, stating:

10

Amezcua contends that none of the lewd act convictions arising out of
his touching of Jane Doe 2 are supported by sufficient evidence because the
evidence does not support a finding that he performed the touching with any
sexual intent.

11
12
13

In considering a challenge to the sufficiency of the evidence, “we
review the entire record in the light most favorable to the judgment to
determine whether it contains substantial evidence -- that is, evidence that is
reasonable, credible, and of solid value -- from which a reasonable trier of
fact could find the defendant guilty beyond a reasonable doubt. [Citation.]
We presume every fact in support of the judgment the trier of fact could
have reasonably deduced from the evidence. [Citation.] If the
circumstances reasonably justify the trier of fact’s findings, reversal of the
judgment is not warranted simply because the circumstances might also
reasonably be reconciled with a contrary finding. [Citation.] ‘A reviewing
court neither reweighs evidence nor reevaluates a witness’s credibility.’”
(People v. Albillar (2010) 51 Cal. 4th 47, 60.)

14
15
16
17
18
19
20
21
22

Amezcua was convicted of committing lewd acts against a child under
section 288, subdivision (a) for touching Jane Doe 2’s vagina. That
provision makes it a crime when “any person . . . willfully and lewdly
commits any lewd or lascivious act . . . upon or with the body, or any part or
member thereof, of a child who is under the age of 14 years, with the intent
of arousing, appealing to, or gratifying the lust, passions, or sexual desires of
that person or the child.”

23
24
25
26
27
28

///
10
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.918 Page 11 of 40

1
2
3
4
5
6
7
8

“[S]ection 288 ‘prohibits all forms of sexually motivated contact with
an underage child. . . .’ [Citation.] Thus, any touching of a child under the
age of 14 is a felony offense ‘even if the touching is outwardly innocuous
and inoffensive, if it is accompanied by the intent to arouse or gratify the
sexual desires of either the perpetrator or the victim.’ [Citations.] . . . [¶] To
determine whether a defendant acted with sexual intent, all the
circumstances are examined. Relevant factors include the nature and
manner of the touching, the defendant’s extrajudicial statements, the
relationship of the parties and ‘any coercion, bribery or deceit used to obtain
the victim’s cooperation or avoid detection.’ [Citation.] The requisite intent
‘must be inferred from all the circumstances. . . .’” (In re R.C. (2011) 196
Cal.App.4th 741, 749-750.)

9
10
11
12
13
14
15
16
17
18
19
20
21
22

Here, substantial evidence supports a finding that Amezcua acted with
sexual intent in touching Jane Doe 2. The strongest evidence of Amezcua’s
intent in touching Jane Doe 2 is found in his own admissions during the
police interview. Amezcua told the police that he was “aroused,” although
without an erection, when he touched Jane Doe 1 and Jane Doe 2. Further,
Jane Doe 1 testified that Amezcua’s penis was erect when he made her touch
it during the molestations. From this testimony, a reasonable juror could
infer that touching young girls is arousing to Amezcua because it is sexually
stimulating to him, and that is why he committed the acts.
Although Amezcua attempted during his trial testimony to minimize
his admission to being “aroused” during the molestations by claiming that he
meant “aroused in the sense of thinking, I shouldn't be doing this,” and
claimed that he did not touch Jane Doe 2 for any sexual purpose, it was for
the jury to decide whether to credit Amezcua’s trial testimony on that issue.
A reasonable juror could decide that Amezcua’s attempt to minimize his
admission to police was not credible because it contradicted his earlier
statements and there is no sensible explanation for why someone in
Amezcua’s position would touch a young girl’s vagina except for the
purpose of sexual stimulation.

23
24
25
26
27
28

Amezcua’s sexual intent in touching Jane Doe 2 is also shown by
evidence supporting a finding that Amezcua knew that what he was doing
was wrong. Specifically, (1) Amezcua told Jane Doe 2 not to tell anyone
about the touching; (2) Amezcua admitted that he knew he was “not
supposed to do this” while he was touching Jane Doe 2; and (3) Amezcua
described his thought process upon initiating the molestation as “[my] stupid
brain would take me down that way.” A reasonable juror could infer that

11
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.919 Page 12 of 40

1

because Amezcua viewed his acts as improper, because the touching
involved a young girl in various places, including her vagina, and Amezcua
used the word “aroused” when explaining his state of mind, Amezcua was
doing the acts with sexual intent.

2
3
4

In sum, under the totality of the circumstances, we conclude that
ample evidence supports a finding that Amezcua’s touching of Jane Doe 2
was done “with the intent of arousing, appealing to, or gratifying the lust,
passions, or sexual desires of that person or the child.” (§ 288, subd. (a).)

5
6
7
8

(Lodgment No. 6 at 13-16, ECF No. 7-10.)

9

2.

Discussion

10

It is clearly established that due process clause is violated “if it is found that upon

11

the evidence adduced at the trial no rational trier of fact could have found proof of guilt

12

beyond a reasonable doubt.” Jackson v. Virginia, 443 U.S. 307, 324 (1979); see also

13

Cavazos v. Smith, 565 U.S. 1, 7 (2011) (per curiam ); Juan H. v. Allen, 408 F.3d 1262,

14

1275 (9th Cir. 2005). This Court must review the state court record and view the

15

evidence in the “light most favorable to the prosecution and all reasonable inferences

16

that may be drawn from this evidence.” Juan H., 408 F.3d at 1276 (citing Jackson, 443

17

U.S. at 319).
A petitioner faces a “heavy burden” when seeking habeas relief by challenging

18
19

the sufficiency of evidence used to obtain a state conviction on federal due process

20

grounds. Juan H., 408 F.3d at 1274. The federal habeas court must “apply the

21

standards of Jackson with an additional layer of deference” under Section 2254(d)(1).

22

Id.; see also Coleman v. Johnson, 566 U.S. 650, 651 (2012) (“We have made clear that

23

Jackson claims face a high bar in federal habeas proceedings because they are subject to

24

two layers of judicial deference.”). This doubly deferential standard limits the federal

25

habeas court’s inquiry to whether the state court’s rejection of a sufficiency of the

26

evidence challenge was an objectively unreasonable application of Jackson. Emery v.

27

Clark, 643 F.3d 1210, 1214 (9th Cir. 2011); see also Johnson, 566 U.S. at 651.

28

///
12
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.920 Page 13 of 40

1

Furthermore, “[c]ircumstantial evidence and inferences drawn from that evidence

2

may be sufficient to sustain a conviction.” Walters v. Maass, 45 F.3d 1355, 1358 (9th

3

Cir. 1995) (quoting United States v. Lewis, 787 F.2d 1318, 1323 (9th Cir.) amended on

4

denial of reh’g, 798 F.2d 1250 (9th Cir. 1986)). A petitioner’s insufficient evidence

5

claim must be examined “with explicit reference to the substantive elements of the

6

criminal offense as defined by state law.” Chein v. Shumsky, 373 F.3d 978, 983 (9th Cir.

7

2004) (en banc) (quoting Jackson, 443 U.S. at 324 n. 16).

8

California Penal Code section 288(a) states, in relevant part:

9

Except as provided in subdivision (i), any person who willfully and
lewdly commits any lewd or lascivious act . . . upon or with the body, or any
part or member thereof, of a child who is under the age of 14 years, with the
intent of arousing, appealing to, or gratifying the lust, passions, or sexual
desires of that person or the child, is guilty of a felony.

10
11
12
13

Cal. Penal Code § 288(a). The statute is violated if there is “‘any touching’ of an

14

underage child accomplished with the intent of arousing the sexual desires of either the

15

perpetrator or the child.” People v. Martinez, 11 Cal. 4th 434, 452 (Cal. 1995). In short,

16

the offense has two elements: “(a) the touching of an underage child’s body (b) with a

17

sexual intent.” United States v. Baron-Medina, 187 F.3d 1144, 1147 (citing Martinez, 11

18

Cal.4th at 452); United States v. Farmer, 627 F.3d 416, 419 (9th Cir. 2010).

19

To satisfy the intent element, the prosecution must establish that the defendant had

20

“the specific intent of arousing, appealing to, or gratifying the lust of the child or the

21

accused.” People v. Warner, 39 Cal. 4th 548, 557 (Cal. 2006). “Because intent for

22

purposes of . . . section 288 can seldom be proven by direct evidence, it may be inferred

23

from the circumstances.” In re Mariah T., 159 Cal. App. 4th 428, 440 (Cal. App. 2008).

24

Where the “defendant’s physical conduct might be consistent with a nonsexual

25

purpose, the jury can look to surrounding circumstances and rely on them to draw

26

inferences about his intent.” People v. Valenti, 243 Cal. App. 4th 1140, 1160 (Cal. App.

27

2016). Relevant factors can include a defendant’s “extrajudicial statements, other acts of

28

lewd conduct admitted or charged in the case, the relationship of the parties, and any
13
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.921 Page 14 of 40

1

coercion, bribery, or deceit used to obtain the victim’s cooperation or to avoid detection.”

2

Martinez, 11 Cal. 4th at 445 (internal citations omitted).

3

Here, as the appellate court discussed, Amezcua stated during his interview with

4

detectives that when he touched both Jane Does 1 and 2, he was “[a]roused but not

5

where, um with erections but aroused.” (Id. at 94.) He admitted that he was “mentally. .

6

. aroused.” (Id.) This alone could have been enough for a reasonable juror to infer that

7

Petitioner touched Jane Doe 2 with “specific intent to arousing, appealing to, or

8

gratifying the lust” of Petitioner. See Warner, 39 Cal. 4th at 557.

9

In addition, Amezcua stated during his interview that he was attracted to Jane Doe

10

2’s physical appearance. When detectives asked Petitioner why he had singled out Jane

11

Does 1 and 2 and not his other grandchildren, the following exchange took place:

12

[Detective]: Was it . . . did they have a certain personality that really . . .
that you identified with? And what about them was it that was
exciting?

13
14
15
16
17
18
19
20
21

Amezcua:

[Detective]: What’s different about say Ashley, or Alexa, or Hope’s rearend that isn’t the same as theirs?
Amezcua:

Amezcua:

23

25

It didn’t, uh, it never attracted me in that, in that way. . . .

[Detective]: What about [Jane Doe 2]? Was there a specific incident that
set that off?

22

24

Their rear-end, their butts.

No, other than she’s very boisterous, very loud, very playful.
And she’s gonna be a beautiful girl, very, very beautiful.
She’s gonna be a beautiful young, young woman.

[Detective]: But for her [it] was her butt? Just the way it looked?
Amezcua:

The way it was shaped.

26
27

[Detective]: Yeah. And so when you would put your hands down their
pants I mean what was the goal.

28
14
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.922 Page 15 of 40

1

Amezcua:

2
3
4

They were . . . they really didn’t know what was goin’ on. I’ll
be honest with you they didn’t know what was goin’ on.

[Detective]: I would imagine that they wouldn’t. What was your goal?
Amezcua:

My goal was to satisfy this thought.

5
6
7
8

[Detective]: And what’s that thought?
Amezcua:

That I was touching their private, their, their vaginas, in my
mind.

9

(Lodgment No. 1, Clerk’s Tr. at 106-08, ECF No. 7-1.) Amezcua also stated that once

10

Jane Doe 2 was about 14 years old, he had “no attraction” to her anymore. He admitted

11

that his could have been because she had gotten older. (Id. at 100.) Amezcua urged

12

Jane Doe 2 not to tell anyone about the touching. (Lodgment No. 1, Clerk’s Tr. at 86.)

13

Given Petitioner’s statements about his “attraction” to Jane Doe 2 and his attempt to

14

hide his conduct from others, a reasonable juror could have inferred that he touched her

15

with sexual intent. See Martinez, 11 Cal. 4th at 445.

16

Finally, a reasonable juror could have inferred Petitioner’s sexual intent as to Jane

17

Doe 2 based on the testimony of Jane Doe 1. As the appellate court noted, Jane Doe 1

18

testified that on more than one occasion, Amezcua had rubbed her clitoris and her breasts

19

for about 15 minutes. While he did this, Petitioner put Jane Doe 1’s hand on his erect

20

penis. (Lodgment No. 1, Rep.’s Tr. vol. 1 at 115-16, 118.) During his interview with

21

detective, Amezcua admitted that he put Jane Doe 1’s hand on his penis. (Lodgment No.

22

1, Clerk’s Tr. vol. 1 at 92-93.) Although Petitioner denied that his penis was erect, he

23

conceded that he was “aroused.” (Id. at 94.) The jury was permitted to consider Jane

24

Doe 1’s testimony that Petitioner placed her hand on his erect penis several times as

25

circumstantial evidence of Petitioner’s sexual intent while touching Jane Doe 2. See

26

Martinez, 11 Cal. 4th at 445 (holding that a jury may consider the surrounding

27

circumstances and rely on them to draw inferences about a defendant’s specific intent,

28

including evidence of “other acts of lewd conduct admitted or charged in the case”); see
15
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.923 Page 16 of 40

1

also People v. Gilbert, 5 Cal. App. 4th 1372, 1380 (Cal. App. 1992). While Amezcua

2

testified at trial that his touching of Jane Does 1 and 2 not “sexual” (Lodgment No. 2, vol.

3

1 at 182), it was for the jury to resolve any evidentiary conflicts. Walters v. Maass, 45

4

F.3d 1355, 1358 (9th Cir. 1995). And under Jackson, the jury’s credibility determination

5

is “entitled to near-total deference.” Bruce v. Terhune, 376 F.3d 950, 957 (9th Cir. 2004).

6

Based on the foregoing and viewing all the evidence and all reasonable inferences

7

in the light most favorable to the verdict, there is sufficient evidence to support the jury’s

8

implicit finding that Amezcua touched Jane Doe 2 with sexual intent. A reasonable juror

9

could have inferred such intent from Petitioner’s pretrial statements, his trial testimony

10

and the testimony of both Jane Doe 1 and Jane Doe 2. See Jackson, 443 U.S. at 319.

11

Accordingly, the state court’s denial of Amezcua’s claim was neither contrary to, nor an

12

unreasonable application of, clearly established law. See 28 U.S.C. § 2254(d); Williams,

13

529 U.S. at 407-08. The claim is DENIED.

14

B.

15

Amezcua argues that there was insufficient evidence to support his convictions on

16

counts seven, nine and ten because the prosecution failed to establish corpus delicti as to

17

those counts. (Pet. at 6, ECF No. 1.) Respondent argues that Petitioner has failed to

18

raise a cognizable claim on federal habeas and as such, the claim must be dismissed.

19

(Mem. P. & A. Supp. Answer at 10-11, ECF No. 6-1.)

20

Sufficiency of Evidence: Corpus Delicti (ground one)

1.

21

State Court Decision

Amezcua raised this claim in his petition for review to the California Supreme

22

Court, which was denied without comment or citation. (See Lodgment Nos. 7 & 8, ECF

23

Nos. 7-10, 7-12.) This Court therefore looks through the silent denial to the California

24

Court of Appeal’s reasoned decision. See Ylst, 501 U.S. at 805-06. In denying the

25

claim,4 the appellate court stated:

26
27
28

One appellate justice on the three-judge panel dissented on the issue of corpus delicti, stating that “no
evidence was presented at trial, independent of Amezcua’s extrajudicial statements, that Amezcua
touched Jane Doe 2’s buttocks at the San Diego residence as alleged in count 7 or that he touched Jane
4

16
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.924 Page 17 of 40

1

We first consider Amezcua’s contention that the evidence was
insufficient to convict him of three of the counts alleging lewd acts against
Jane Doe 2 (counts 7, 9 & 10) because the prosecution did not establish the
corpus delicti of those offenses and improperly premised the convictions
solely on Amezcua’s extrajudicial statements.

2
3
4

“In every criminal trial, the prosecution must prove the corpus
delicti, or the body of the crime itself—i.e., the fact of injury, loss, or harm,
and the existence of a criminal agency as its cause.” (People v. Alvarez
(2002) 27 Cal.4th 1161, 1168.) “Though no statute or constitutional
principle requires it, California, like most American jurisdictions, has
historically adhered to the rule that the . . . corpus delicti . . . cannot be
proved by exclusive reliance on the defendant's extrajudicial statements.”
(Id. at p. 1165.) Put another way, “[t]he corpus delicti rule requires the
prosecution to prove that ‘the charged crime actually happened’ exclusive
of the accused’s extrajudicial statements.” (People v. Ray (1996) 13
Cal.4th 313, 342, italics added.) “This rule is intended to ensure that one
will not be falsely convicted, by his or her untested words alone, of a crime
that never happened.” (Alvarez, supra, at p. 1169, italics added.)

5
6
7
8
9
10
11
12
13
14

Although the corpus delicti rule requires that the prosecution present
proof that a crime occurred independent of the defendant’s extrajudicial
statements, “[t]he independent proof may be by circumstantial evidence
[citation], and it need not be beyond a reasonable doubt. A slight or prima
facie showing, permitting the reasonable inference that a crime was
committed, is sufficient. [Citation.] If the independent proof meets this
threshold requirement, the accused’s admissions may then be considered to
strengthen the case on all issues.” (People v. Alcala (1984) 36 Cal.3d 604,
624–625.)

15
16
17
18
19
20
21

In People v. Jennings (1991) 53 Cal.3d 334, 368, the court explained
the minimal burden of proof required for corpus delicti, and the reasons for
the rule. The court said:

22
23
24
25
26
27
28

///
Doe [2’s] vagina, skin-to-skin at the Riverside residence as alleged in count 9.” (Lodgment No. 6 at 25,
ECF No. 7-10.) The dissenting justice concluded that “the convictions in counts 7 and 9 were not
supported by sufficient evidence due to the operation of the corpus delicti rule.” Id. (emphasis in
original). As for count ten, the dissenting justice concluded that it was supported by admissions made
by Amezcua during his trial testimony, independent of his extrajudicial statements, and as such the
corpus delicti rule did not undermine his conviction on count ten. Id.
17
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.925 Page 18 of 40

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16

“We reemphasize that the quantum of evidence the
People must produce in order to satisfy the corpus delicti rule is
quite modest; case law describes it as a ‘slight or prima facie’
showing. [Citations.] This minimal standard is better
understood when we consider that the purpose of the corpus
delicti rule is ‘to protect the defendant against the possibility of
fabricated testimony which might wrongfully establish the
crime and the perpetrator.’ [Citation.] As one court explained,
‘Today’s judicial retention of the rule reflects the continued fear
that confessions may be the result of either improper police
activity or the mental instability of the accused, and the
recognition that juries are likely to accept confessions
uncritically.’” (Id. at p. 368.)
We infer from the court’s comments that proof of corpus delicti is not
intended to verify each detail of a defendant’s out-of-court statements; rather
it is to avoid false confessions, particularly those that might arise from the
pressure of police interrogation. Consistent with the policy underlying the
rule, courts in child molestation cases involving multiple acts, have not
required count-by-count proof of corpus delicti. In People v. Tompkins
(2010) 185 Cal.App.4th 1253 (Tompkins), the court squarely held that
“separate evidence is not required as to each individual count to establish the
corpus delicti; rather, evidence that multiple molestations took place will
establish the corpus delicti for multiple counts.” (Id. at p. 1260.)

17
18
19
20
21
22
23
24
25
26

The approach taken in Tompkins, supra, 185 Cal.App.4th 1253 is
based on the observation that “[t]he testimony of young children
concerning a series of events cannot be as perfect as a phonographic record
thereof. It would practically close the doors against the prosecution of
many of such wrongs if girls of tender years were required to give detailed
and unvarying description of each transaction and its circumstances.”
(People v. Durfee (1947) 79 Cal.App.2d 632, 634.)
[Footnote 4: Similar to the liberal approach taken in cases
considering whether the corpus delicti rule has been satisfied in child
molestation cases, when sufficiency of the evidence of a child molestation
conviction is challenged, courts apply the rule that a defendant may
properly be convicted of acts of child molestation based on a witness’s
testimony that the defendant generally molested her in a specific manner

27
28
18
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.926 Page 19 of 40

1

over the course of time, even if the witness is unable to provide details
about “precise date, time, place or circumstance. (People v. Jones (1990)
51 Cal.3d 294, 315.)]

2
3

In Tompkins, the defendant was convicted of multiple counts of lewd
acts against his minor daughter and argued that based on the corpus delicti
rule, he should not have been convicted of six of the counts because “the
only evidence to support those counts was his own statements” to an
investigator, in which he described the specific acts of molestation.
(Tompkins, supra, 185 Cal.App.4th at p. 1259.) Tompkins concluded that
because the victim’s testimony generally described numerous instances of
molestation, including that “defendant molested her more than once but less
than 50 times, [that] she had visitation with defendant approximately every
other weekend during that period, and defendant molested her on some, but
not all, of those visits,” and she also told an investigator that the defendant
had touched her “‘on many occasions,’” the evidence “was amply sufficient”
to establish the corpus delicti for the six specific counts of molestation that
defendant challenged. (Id. at p. 1260.)

4
5
6
7
8
9
10
11
12
13

In People v. Culton (1992) 11 Cal.App.4th 363 (Culton), the corpus
delicti for the defendant’s conviction for 10 counts of committing a lewd act
on a child was supplied by expert medical testimony from a doctor who
performed a forensic genital examination of the victim. (Id. at pp. 365, 368.)
Specifically, the doctor testified that the victim’s physical condition was
consistent with having been abused over a long period of time, which
established the corpus delicti for all the offenses. (Id. at p. 372.)

14
15
16
17
18
19

Jane Doe 2 did not testify at trial to any of the acts described in counts
7, 9 and 10, as she described only two incidents: one in which Amezcua
touched her arms and vagina at the San Diego residence; and one in which
Amezcua touched her arms and her chest near the collarbone at the San
Diego residence. However, during Amezcua’s own testimony at trial, he
admitted to committing the act charged in count 10, which was touching
Jane Doe 2’s vagina “over the clothes, the first time” at the Riverside
County residence.

20
21
22
23
24
25

Specifically, as we have described above, Amezcua generally seemed
to admit at trial that he touched Jane Doe 2 at his Riverside County
residence as he described during his police interview.

26
27
28

///
19
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.927 Page 20 of 40

1

[Prosecutor]: You told the detectives you were playing
piggyback or goofy games and that you had touched her -- and
this was at the [Riverside County] house -- you touched her on
her vagina on that occasion.

2
3
4

[Amezcua]: I think so.

5
[Prosecutor]: And then they asked you how many more times it
happened. You said three more times at the [Riverside County]
house; is that correct?

6
7
8

[Amezcua]: I remember two situations with [Jane Doe 2], just
two situations.”

9
10

Later in his trial testimony, Amezcua was asked about an admission
during his police interview about the first incident at the Riverside County
residence, and he specifically admitted that he purposely touched Jane Doe
2’s vagina on that occasion.

11
12
13

[Prosecutor]: Do you remember the detective asking you, can
you tell me what happened with [Jane Doe 2]? And then you
replied, ‘It was again, cuddling, playing. I noticed that -- uh,
see if I could touch her, and I did. In the back again, start in
the rear end and rubbed her thighs and again in her private
part.’ You reference that section of your interview. Would it
be fair to say that that instance of the touching was not an
accident?

14
15
16
17
18
19

[Amezcua]: Yes, it was not an accident.

20
21

[Prosecutor]: You did it on purpose?

22

[Amezcua]: Yes.

23
Amezcua seeks to distinguish both Culton, supra, 11 Cal.App.4th
363 and Tompkins, supra, 185 Cal.App.4th 1253, thus arguing his proposed
count-by-count application of corpus delicti in child molestation cases is
warranted. We find his proposed distinctions of controlling authority are
not persuasive.

24
25
26
27
28

///
20
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.928 Page 21 of 40

1
2
3
4
5
6
7
8
9
10

Amezcua contends Culton, supra, 11 Cal.App.4th 363 is
distinguishable because there was medical testimony in that case which
supported a finding of child molestation, perhaps on multiple occasions. In
this case, there was no medical evidence. However, in Culton the
defendant was convicted of multiple counts of child molestation, without
independent evidence on a count-by-count basis. The court reasoned that
the purpose of the corpus delicti rule did not require such an expanded
form of corroboration.
Similarly, Amezcua argues Tompkins, supra, 185 Cal.App.4th 1253,
which like Culton, supra, 11 Cal.App.4th 363, was decided by Division
Two of our court, is distinguishable. The attempted distinction is that the
Tompkins case relied on generalized testimony regarding on going child
molestation, whereas Jane Doe 2’s testimony in this case was specific.
Again, we find the proposed distinction is not persuasive.

11
12
13
14
15
16
17
18
19
20

The court in Tompkins was very clear in its analysis of the
application of corpus delicti in multiple count child molestation cases. The
court said: “We read Culton[, supra, 11 Cal.App.4th 363] as standing for
the proposition that separate evidence is not required as to each individual
count to establish the corpus delicti; rather, evidence that multiple
molestations took place will establish the corpus delicti for multiple
counts.” (Tompkins, supra, 185 Cal.App.4th at p. 1260.)
We are persuaded by the opinions in Culton, supra, 11 Cal.App.4th
363 and Tompkins, supra, 185 Cal.App.4th 1253 and follow their reasoning.
We also find some independent evidence in Amezcua’s testimony.
Although Jane Doe 2 testified that no molestation occurred in Riverside
County, Amezcua’s testimony provides some independent evidence of such
acts.

21
22
23
24
25
26
27

As we have quoted above, Amezcua testified that some “playful
activities” involving Jane Doe 2, including touching her vagina, occurred in
Riverside County. Jane Doe 2 also testified there was only one occasion of
molestation, and that occurred in San Diego. Again, as we have quoted
above, Amezcua testified there were “two instances” involving the touching
of Jane Doe 2. Although Amezcua’s testimony was often vague or
inconsistent, a reasonable jury could conclude his testimony provided some
independent evidence that Jane Doe 2 was molested twice, once in Riverside
County and once in San Diego.

28
21
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.929 Page 22 of 40

1

Based on the controlling appellate authority and on drawing all
reasonable inferences in favor of the decision of the trier of fact, we are
satisfied that the challenged conviction for counts involving Jane Doe 2 are
supported by sufficient evidence of corpus delicti. Accordingly, we reject
Amezcua’s arguments to the contrary.

2
3
4
5

(Lodgment No. 6 at 7-13, ECF No. 7-10.)

6

2. Discussion

7

Respondent argues this claim must be denied because it is not cognizable on

8

federal habeas. (Mem. P. & A. Supp. Answer at 10-11, ECF No. 6-1.) A person in

9

custody pursuant to the judgment of a state court can obtain a federal writ of habeas

10

corpus only grounds that he is in custody in violation of the Constitution or laws or

11

treaties of the United States. 28 U.S.C. § 2254(a). As such, federal habeas relief is

12

generally not available for alleged errors of state law. See Swarthout v. Cooke, 562 U.S.

13

216, 219 (2011).

14

“In every criminal trial, the prosecution must prove the corpus delicti, or the body

15

of the crime itself -- i.e., the fact of injury, loss, or harm, and the existence of a criminal

16

agency as its cause. In California, it has traditionally been held, the prosecution cannot

17

satisfy this burden by relying exclusively upon the extrajudicial statements, confessions,

18

or admissions of the defendant.” People v. Alvarez, 27 Cal. 4th 1161, 1168-69 (Cal.

19

2002). Generally, the corpus delicti rule requires a defendant’s confession be

20

corroborated by some independent evidence in order to serve as the basis for a

21

conviction. United States v. Lopez-Alvarez, 970 F.2d 583, 589 (9th Cir. 1992). Only a

22

slight or prima facie showing, permitting the reasonable inference that the crime was

23

committed, is required. People v. Ray, 13 Cal. 4th 313, 342 (Cal. 1996). As explained in

24

Alvarez, “once the necessary quantum of independent evidence is present, the defendant’s

25

extrajudicial statements may then be considered for their full value to strengthen the case

26

on all issues.” Alvarez, 27 Cal. 4th at 1171.

27

///

28

///
22
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.930 Page 23 of 40

1

The California Supreme Court has stated that the requirement that some

2

independent evidence support a defendant’s extrajudicial statement is a matter of state

3

law. Alvarez, 27 Cal. 4th at 1173 (“[i]t is undisputed that the corpus delicti rule is not a

4

requirement of federal law”). Thus, to the extent Petitioner alleges purely a violation of

5

California’s corpus delicti law, his claim is not cognizable on federal habeas.

6

But here, Amezcua argues that his due process rights were violated because there

7

was insufficient evidence, due to a lack of corpus delicti, to support his conviction and

8

therefore amounted to a violation of the Due Process Clause under Jackson v. Virgina.

9

(Pet. at 6, ECF No. 1.) Petitioner, however, cites no authority for the proposition that

10

application of a state corpus delicti rule is constitutionally mandated in a Jackson

11

analysis. Although the corpus delicti rule is applied in federal criminal cases,5 it has not

12

been held by the Supreme Court a requirement under the U.S. Constitution.
The Fifth Circuit Court of Appeals considered Texas’ corpus delicti law in

13
14

conjunction with a sufficieny of evidence claim and held that “‘in challenges to state

15

convictions under 28 U.S.C. § 2254, only Jackson [v. Virgina] need be satisfied, even if

16

state law would impose a more demanding standard of proof.’” West v. Johnson, 92 F.3d

17

1385, 1394 (5th Cir. 1996). The Eighth Circuit has also held that there are “no

18

constitutional rights are at stake” in raising a corpus delicti argument in a sufficiency of

19

evidence claim. Evans v. Luebbers, 371 F.3d 438, 442 (8th Cir. 2004) (concluding

20

Missouri’s corpus delicti requirement that the prosecution present some independent

21

proof of the death of the victim that the death was caused by human agency (i.e., not by

22

accident or suicide), prior to introducing incriminating statement made by the defendant,

23

was not cognizable on habeas review).6 Thus, the misapplication of the corpus delicti

24
25
26
27
28

As with California’s corpus delicti rule, a defendant in a federal criminal case cannot be convicted
based solely on his or her uncorroborated statements or confessions. See Smith v. United States, 348
U.S. 147, 153-54 (1954); Wong Sun v. United States, 371 U.S. 471, 489 (1963).
5

Missouri’s corpus delicti rule is somewhat different than California’s. In Missouri, there must be
corroborating evidence in order to admit the defendant’s incriminating statements as evidence. See
6

23
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.931 Page 24 of 40

1

rule does not appear to affect a federal constitutional right regarding the sufficiency of the

2

evidence.

3

Nonetheless, even assuming Amezcua’s claim is cognizable, he would not be

4

entitled to relief. Ultimately, “[t]he issue for [the Court], always, is whether the state

5

proceedings satisfied due process; the presence or absence of a state law violation is

6

largely beside the point.” Jammal v. Van de Kamp, 926 F.2d 918, 919-20 (9th Cir. 1991)

7

(“While adherence to state evidentiary rules suggests that the trial was conducted in a

8

procedurally fair manner, it is certainly possible to have a fair trial even when state

9

standards are violated; conversely, state procedural and evidentiary rules may

10

countenance processes that do not comport with fundamental fairness.”).

11

In making that determination, this Court is bound by the state court’s interpretation

12

of California law unless its interpretation is so arbitrary or capricious such that it violates

13

due process. See Bradshaw v. Richey, 546 U.S. 74, 76 (2005) (per curiam) (“We have

14

repeatedly held that a state court’s interpretation of state law, including one announced on

15

direct appeal of the challenged conviction, binds a federal court sitting in habeas

16

corpus.”); Richmond v. Lewis, 506 U.S. 40, 50 (1992) (state court’s application of state

17

law does not raise a cognizable federal question unless it was so arbitrary or capricious as

18

to constitute an independent due process violation).

19

Here, Amezcua argues that his due process rights were violated because there was

20

no corroborating evidence to support his conviction on counts seven, nine and ten. All

21

three counts involved incidents that took place in Jane Doe 2’s former residence in

22

Winchester, California. (See Lodgment No. 1, Clerk’s Tr. at 29-30, ECF No. 7-1.) At

23

trial, Jane Doe 2 testified that Amezcua touched on only two occasions, both when she

24

was living in San Diego, California. When asked if there were any other instances, she

25
26
27
28

Evans, 371 F.3d at 442 (noting Missouri’s corpus delicti rule is of an evidentiary nature). In contrast,
under California’s delicti rule a defendant’s statements are admissible regardless of corroboration.
Alvarez, 27 Cal. 4th at 1174 (holding that California’s corpus delicti rule does not restrict the
admissibility of incriminatory extrajudicial statements by the accused).
24
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.932 Page 25 of 40

1

stated unequivocally that there were not. (Lodgment No. 2, vol. 1 at 98, 106 ECF No. 7-

2

2.) Thus, her testimony provided no direct evidence to support counts seven, nine and

3

ten.

4

As the appellate court found, in cases of child molestation, California courts have

5

held that evidence of multiple molestations can provide corroboration sufficient to satisfy

6

the corpus delicti rule. In People v. Tompkins, 185 Cal. App. 4th 1253 (Cal. App. 2010),

7

the prosecution charged the defendant with 11 counts of lewd and lascivious acts on a

8

child under 14. The defendant argued the corpus delicti rule prohibited convicting him of

9

acts described only by his out-of-court statements to an investigator. Relying on People

10

v. Culton, 11 Cal. App. 4th 363 (Cal. App. 1992), the Tompkins court rejected the

11

argument. “We read Culton as standing for the proposition that separate evidence is not

12

required as to each individual count to establish the corpus delicti; rather, evidence that

13

multiple molestations took place will establish the corpus delicti for multiple counts.

14

[Citation.]” Tompkins, 185 Cal. App. 4th at 1260. In light of this case law, the appellate

15

court reviewing Amezcua’s claim concluded that the testimony from Jane Doe 1 and Jane

16

Doe 2 as to other molestations was sufficient to satisfy corpus delicti as to counts seven,

17

nine and ten. (See Lodgment No. 6 at 12, ECF No. 7-10).

18

This Court defers to the California appellate court’s construction of state law. See

19

Bradshaw, 546 U.S. at 76. The state court’s interpretation of the corpus delicti law was

20

not arbitrary or capricious, see Richmond, 506 U.S. at 50, nor was it “untenable or

21

amount[ing] to a subterfuge to avoid federal review of a constitutional violation.” See

22

Oxborrow v. Eikenberry, 877 F.2d 1395, 1399 (9th Cir. 1989). Thus, even if clearly

23

established federal law protected Petitioner from conviction without corpus delicti, he has

24

not shown that the state court erred, or that its decision was “untenable or amounts to a

25

subterfuge to avoid federal review of a constitutional violation.” See id.; see also

26

Venegas v. Davey, 2014 WL 2042057, at *14 (E.D. Cal. 2014) (dismissing claim,

27

///

28

///
25
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.933 Page 26 of 40

1

explaining that federal habeas corpus court was bound by the state court’s interpretation

2

of the state’s corpus delicti rule unless that interpretation was untenable or an attempt to

3

avoid review of federal questions). Therefore, claim one is DENIED.

4

C.

5

In ground three, Petitioner argues the prosecutor committed misconduct by

Prosecutorial Misconduct: Closing Argument (ground three)

6

misstating the corpus delicti rule during closing argument, violating his right to due

7

process. (Pet. at 8, ECF No. 1.) Respondent contends the claim must be denied because

8

it is procedurally defaulted. (Mem. P. & A. Supp. Answer at 14, ECF No. 6-1.)

9
10

1. State Court Decision
Amezcua raised this claim in his petition for review to the California Supreme

11

Court and it was denied without comment or citation. (See Lodgment Nos. 7 & 8, ECF

12

Nos. 7-11, 7-12.) As such, this Court looks through to the California Court of Appeal’s

13

opinion. See Ylst, 501 U.S. at 805-06. The appellate court denied Petitioner’s claim,

14

concluding that the claim was barred due to defense counsel’s failure to object at trial.

15

The court stated:

16
17
18
19
20
21

Where a prosecutor uses deceptive or reprehensible methods to
attempt to persuade a jury, he or she has committed misconduct. (People v.
Fuvia (2012) 53 Cal. 4th 622, 679.) However, a defendant may not raise an
issue regarding the prosecutor’s arguments for the first time on appeal.
(People v. Samayoa (1997) 15 Cal. 4th 795, 841.) Failure to timely object
can be excused only where an objection would have been futile or where the
harm caused by the prosecutor’s argument cannot be cured by objection.
(Fuvia, supra, at p. 679; People v. Jablonski (2006) 37 Cal. 4th 774, 835;
People v. Morales (2001) 25 Cal. 4th 34, 43-44.)

22
23
24
25
26
27
28

During closing arguments, the prosecutor said that he could prove
corpus delicti of the offenses involving Jane Doe 2 by showing multiple
molestations of her had occurred. Amezcua now claims such comments
were erroneous and caused him prejudice. He recognizes failure to object
during argument ordinarily forfeits the claim. Amezcua claims, without
support in the record, that an objection would have been futile. We find
nothing in the record to show that timely objection and admonition would
not have cured any alleged error. The jury had been properly instructed on
the principles of corpus delicti, and they had been told the judge was the
26
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.934 Page 27 of 40

1
2
3
4
5
6
7

person who stated the law, not the attorneys. We find nothing in the record
to justify relieving Amezcua of the application of the long established rule
that failure to timely object to arguments results in forfeiture of the issue.
Accordingly, we do not discuss the merits of Amezcua’s contentions on this
issue.
(Lodgment No. 6 at 16-17, ECF No. 7-10.)
2. Procedural Default
Respondent argues this claim is procedurally defaulted because defense counsel

8

failed to make a contemporaneous objection at trial. (Mem. P. & A. Supp. Answer at 14,

9

ECF No. 6-1.) Because the appellate court clearly found that defense counsel failed to

10

make a timely objection to the prosecutor’s closing argument, this Court presumes the

11

California Supreme Court found the claim barred for failure to object. See Lee v.

12

Jacquez, 788 F.3d 1124, 1133 (9th Cir. 2015) (“If the California Supreme Court denies a

13

habeas petition without explanation, the federal courts will presume that a procedural

14

default was imposed if ‘the last reasoned opinion on the claim explicitly impose[d] a

15

procedural default.’”)

16

“The procedural default doctrine ‘bar[s] federal habeas [review] when a state court

17

decline[s] to address a prisoner’s federal claims because the prisoner has failed to meet a

18

state procedural requirement.’” Calderon v. United States District Court, 96 F.3d 1126,

19

1129 (9th Cir. 1996) (quoting Coleman v. Thompson, 501 U.S. 722, 729 (1991)). The

20

doctrine “‘is a specific application of the general adequate and independent state grounds

21

doctrine.’” Id. (quoting Wells v. Maass, 28 F.3d 1005, 1008 (9th Cir. 1994)). Federal

22

courts “‘will not review a question of federal law decided by a state court if the decision

23

of that court rests on a state law ground that is independent of the federal question and

24

adequate to support the judgment.’” Id. (quoting Coleman, 501 U.S. at 729); Park, 202

25

F.3d at 1151.

26

The Ninth Circuit has held that because procedural default is an affirmative

27

defense, Respondent must first have “adequately pled the existence of an independent

28

and adequate state procedural ground.” Bennett v. Mueller, 322 F.3d 573, 586 (9th Cir.
27
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.935 Page 28 of 40

1

2003). Once the defense is placed at issue, the burden shifts to the petitioner, who must

2

then “assert[] specific factual allegations that demonstrate the inadequacy of the state

3

procedure. . . .” Id. The “ultimate burden” of proving procedural default, however,

4

belongs to the state. Id. If the state meets this burden, federal review of the claim is

5

foreclosed unless the petitioner can “demonstrate cause for the default and actual

6

prejudice as a result of the alleged violation of federal law, or demonstrate that failure to

7

consider the claims will result in a fundamental miscarriage of justice.” Coleman, 501

8

U.S. at 750.

9

Respondent contends California’s contemporaneous objection rule is adequate and

10

independent of federal law. (See Mem. P. & A. Supp. Answer at 14, ECF No. 6-1.)

11

Thus, the burden shifts to Petitioner to assert “specific factual allegations” demonstrating

12

the inadequacy of the rule. Bennett, 322 F.3d at 586. For his part, Amezcua provides no

13

response to the procedural bar asserted by Respondent and therefore he has failed to meet

14

his burden. See King v. LaMarque, 464 F.3d 963, 967 (9th Cir. 2006) (“Bennett requires

15

the petitioner to ‘place [the procedural default] defense in issue’ to shift the burden back

16

to the government.”). Furthermore, the Ninth Circuit has determined that California’s

17

contemporaneous objection rule is “an independent and adequate state procedural rule”

18

that bars federal habeas review of a claim. See Zapata v. Vasquez, 788 F.3d 1106, 1111-

19

12 (9th Cir. 2015) (concluding prosecutorial misconduct claim was procedurally

20

defaulted where the where there was a complete failure to object at trial to alleged

21

prosecutorial misconduct); see also Tong Xiong v. Felker, 681 F.3d 1067, 1075 (9th Cir.

22

2012); Fairbank v. Ayers, 650 F.3d 1243, 1257 (9th Cir. 2011); Zapien v. Martel, 849

23

F.3d 787, 793 n.2 (9th Cir. 2015); Vansickel v. White, 166 F.3d 953, 957-58 (9th Cir.

24

1999).

25

Amezcua’s failure to comply with a state’s contemporaneous objection rule

26

therefore results in a procedural default that bars federal consideration of the claim unless

27

he can establish cause for his noncompliance and actual prejudice, or demonstrate that a

28

miscarriage of justice would result. See Schlup v. Delo, 513 U.S. 298, 321 (1995);
28
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.936 Page 29 of 40

1

Coleman, 501 U.S. at 750; Wainwright v. Sykes, 433 U.S. 72, 87 (1977); Cook v. Schriro,

2

538 F.3d 1000, 1025-26 (9th Cir. 2008) (absent a showing of cause and prejudice,

3

petitioner is barred from raising a claim on federal habeas review where he failed to meet

4

state’s contemporaneous objection rule).

5

The cause standard requires Petitioner to show that “some objective factor external

6

to the defense” or constitutionally ineffective assistance of counsel impeded his efforts to

7

comply with the state’s procedural rule. See Murray v. Carrier, 477 U.S. 478, 488

8

(1986). For ineffective assistance of counsel to constitute cause, the ineffective

9

assistance claim must have been presented as an independent claim to the state courts.

10

Id. at 489. Moreover, Petitioner must establish that his attorney was “constitutionally

11

ineffective under the standard established in Strickland v. Washington, [466 U.S. 668

12

(1984)].” Murray, 477 U.S. at 488.

13

Here, Amezcua raised an ineffective assistance of counsel claim on appeal in state

14

court, based on counsel’s failure to object during closing argument. (See Lodgment No.

15

3 at 38-40, ECF No. 7-7.) For the reasons discussed below in section V(D) of this Report

16

and Recommendation, however, Petitioner’s claim does not amount to constitutionally

17

ineffective assistance of counsel under Strickland because counsel’s performance was not

18

deficient. See Cunningham v. Wong, 704 F.3d 1143, 1159 (9th Cir. 2013) (stating that

19

failure to object during closing argument is within the ‘wide range’ of permissible

20

professional legal conduct). Amezcua has therefore not established cause to excuse the

21

procedural default.

22

Nor has he established prejudice. To satisfy the prejudice part of the cause-and-

23

prejudice test, Amezcua must show actual prejudice resulting from the errors of which he

24

complains. See McCleskey v. Zant, 499 U.S. 467, 494 (1991). Prejudice is “actual harm

25

resulting from the claimed constitutional violation.” LaGrand v. Stewart, 173 F.3d 1144,

26

1148 (9th Cir. 1999) (citing Magby v. Wawrzazsek, 741 F.2d 240, 244 (9th Cir. 1984).

27

Here, as discussed in section V(D) below, the prosecutor’s statements during closing

28

argument were not prejudicial because the jury was properly instructed on corpus delicti
29
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.937 Page 30 of 40

1

by the trial judge. United States v. Mendoza, 244 F.3d 1037, 1045 (9th Cir. 2001)

2

(stating that a misstatement of law by a prosecutor can be rendered harmless by the

3

court’s proper instruction to the jury).

4

Finally, Petitioner has not alleged that a miscarriage of justice will result should

5

the Court not consider the claim. The miscarriage of justice exception provides that a

6

federal court may still hear the merits of procedurally defaulted claims if the petitioner

7

can make a showing of actual innocence. See McQuiggin v. Perkins, 569 U.S. 383, 393-

8

94 (2013). “The miscarriage of justice exception is limited to those extraordinary cases

9

where the petitioner asserts his innocence and establishes that the court cannot have

10

confidence in the contrary finding of guilt.” See Johnson v. Knowles, 541 F.3d 933, 936-

11

38 (9th Cir. 2008) (emphasis in original).

12

Petitioner has not established that the Court cannot have confidence in his guilt.

13

To demonstrate “actual innocence,” Amezcua must present new reliable evidence, such

14

as exculpatory scientific evidence, trustworthy eyewitness accounts, or critical physical

15

evidence, that would create a credible claim of actual innocence. Schlup, 513 U.S. at

16

321. Petitioner merely argues there was insufficient evidence to corroborate his pretrial

17

admissions. (See Pet. at 6, 8, ECF No. 1.) Given Amezcua’s inculpatory statements to

18

detectives, he cannot establish actual innocence. See id.

19

In sum, the state court denied this claim pursuant to adequate and independent state

20

procedural grounds that were correctly applied and as such, federal habeas review of this

21

claim is defaulted. See Coleman, 501 U.S. at 729-30. Petitioner has failed to

22

demonstrate either cause and prejudice to excuse the default, or that the failure to

23

consider this claim on the merits would result in a miscarriage of justice. See Schlup, 513

24

U.S. at 324.

25
26

3. Merits
Even if the claim were not procedurally defaulted, Petitioner would not be entitled

27

to relief. Because the state court did not discuss the merits of this claim, the Court

28

reviews it de novo. See Pirtle v. Morgan, 313 F.3d 1160, 1167-68 (9th Cir. 2002)
30
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.938 Page 31 of 40

1

(holding that where “there is no state court decision on [the merits of the constitutional

2

violation alleged] to which to accord deference,” courts review the claim de novo”).

3

A criminal defendant’s due process rights are violated when a prosecutor’s

4

misconduct results in a trial that is “fundamentally unfair.” See Darden v. Wainwright,

5

477 U.S. 168, 193 (1986); Smith v. Phillips, 455 U.S. 209, 219 (1982) (“[T]he touchstone

6

of due process analysis in cases of alleged prosecutorial misconduct is the fairness of the

7

trial, not the culpability of the prosecutor.”). To obtain federal habeas relief on this

8

claim, Amezcua must do more than demonstrate that the prosecutor’s comments were

9

improper. Tak Sun Tan v. Runnels, 413 F.3d 1101, 1112 (9th Cir. 2005); see also

10

Darden, 477 U.S. at 180-81. He must show they “‘so infected the trial with unfairness as

11

to make the resulting conviction a denial of due process.’” Darden, 477 U.S. at 181

12

(quoting Donnelly v. DeChristoforo, 416 U.S. 637 (1974)); accord Greer v. Miller, 483

13

U.S. 756, 765 (1987); Tak Sun Tan, 413 F.3d at 1112; Thompson v. Borg, 74 F.3d 1571,

14

1576 (9th Cir. 1996). If prosecutorial misconduct is established, and it was constitutional

15

error, the court must decide whether the constitutional error was harmless. Thompson, 74

16

F.3d at 1576-77.

17

Where a habeas claim of prosecutorial misconduct during closing argument is

18

alleged, the likely effects of the prosecutor’s statements are examined “in the context in

19

which they were made to determine ‘whether the prosecutors’ comments so infected the

20

trial with unfairness as to make the resulting conviction a denial of due process.’” Turner

21

v. Calderon, 281 F.3d 851, 868 (9th Cir. 2002) (quoting Darden, 477 U.S. at 181)). “A

22

court should not lightly infer that a prosecutor intends an ambiguous remark to have its

23

most damaging meaning or that a jury, sitting through lengthy exhortation, will draw that

24

meaning from the plethora of less damaging interpretations.” Donnelly, 416 U.S. at 647.

25

During closing arguments, a prosecutor is allowed a reasonably wide latitude and can

26

argue reasonable inferences from the evidence. Fields v. Brown, 431 F.3d 1186, 1206

27

(9th Cir. 2005); United States v. Gray, 876 F.2d 1411, 1417 (9th Cir. 1989). However, it

28

is improper for a prosecutor to make statements or inferences to the jury that he knows to
31
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.939 Page 32 of 40

1

be false or has a strong reason to doubt. United States v. Reyes, 577 F.3d 1069, 1077 (9th

2

Cir. 2009).

3

Here, Petitioner contends the prosecutor misstated the corpus delicti rule when he

4

told the jury that the corpus of a section 288(a) violation could be established by evidence

5

of other molestations. Specifically, Amezcua claims the prosecutor misstated the law

6

when he argued as follows:

7
8
9
10
11
12
13
14

Cassandra testified she was touched at least twice in San Diego.
Multiply molestations can be corpus for multiple acts of molestation
because children are not going to remember. If you’re being abused over a
period of time, especially when you’re young, you’re not going to either
remember or be aware of it because the crime occurs solely with the
defendant who is charged with this crime. And that’s because the
defendant has to act willfully by touching a child and then with the lewd
intent. The child’s mindset -- the child doesn’t have to agree to it. It has
nothing to do what the child’s action are or what the child’s state of mind
is. A defendant can be guilty of molesting a child, if I presented corpus of
multiple.

15

(Lodgment No. 2, Rep.’s Tr. vol. 2 at 52, ECF No. 7-3.) Petitioner also points to

16

a portion of the prosecutor’s rebuttal argument, during which he stated:

17
18
19
20
21
22
23

Corpus instruction, and I’m just going to quote the paragraph from it.
I want you to read the whole thing tonight. I don’t want to take it out of
context. 359, that other evidence may be slight -- need only be enough to
support a reasonable inference that a crime was committed. So for the
purposes of corpus, only two instances in which Cassandra said she was
touched inappropriately. That’s more than slight. That’s a lot more than
slight evidence. Other evidence. So we have it. We know that he
committed those offenses. In Riverside county we have the slight evidence
to support that charge for the corpus rule and hold him accountable for
those acts.

24
25
26

(Id. at 104.)
First, it is far from clear that the prosecutor misstated the law with regard to

27

California’s corpus delicti rule. As discussed above, the appellate court found that in

28

cases of child molestation, California courts have held that evidence of multiple
32
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.940 Page 33 of 40

1

molestations can provide corroboration sufficient to satisfy the corpus delicti rule.

2

Relying on Culton, 11 Cal. App. 4th at 363 and Tompkins, 185 Cal. App. 4th at 1260, the

3

court stated that “separate evidence is not required as to each individual count to establish

4

the corpus delicti; rather, evidence that multiple molestations took place will establish the

5

corpus delicti for multiple counts.” (Lodgment No. 6 at 12, ECF No. 7-10.)

6

While it is true that the dissenting judge in this case found Tompkins and Culton

7

distinguishable from Amezcua’s case (see Lodgment No. 6 at 20-26, ECF No. 7-10), this

8

Court must defer to the state court’s majority conclusion. See Langford v. Day, 110 F.3d

9

1380, 1389 (9th Cir. 1997) (stating that federal habeas courts must “accept a state court’s

10

interpretation of state law”); Bradshaw, 546 U.S. at 76 (“[A] state court’s interpretation

11

of state law, including one announced on direct appeal of the challenged conviction,

12

binds a federal court sitting in habeas corpus.”).
Moreover, even assuming the prosecutor’s characterization of corpus delicti was

13
14

inaccurate, Petitioner has not shown it rendered the trial fundamentally unfair. “A slight

15

misstatement of law by a prosecutor can be rendered harmless by the court’s proper

16

instruction to the jury.” United States v. Mendoza, 244 F.3d 1037, 1045 (9th Cir. 2001).

17

Here, the trial judge instructed the jury on the corpus delicti requirement, using the

18

standard California Criminal Jury Instruction No. 359, as follows:

19

The defendant may not be convicted of any crime based on his outof-court statements alone. You may rely on the defendant’s out-of-court
statements to convict him only if you first conclude that other evidence
shows that the charged crime was committed.

20
21
22

That other evidence may be slight and need only be enough to
support a reasonable inference that a crime was committed.

23
24

This requirement of other evidence does not apply to proving the
identity of the person who committed the crime. If other evidence shows
that the charged crime was committed, the identity of the person who
committed it may be proved by the defendant’s statements alone.

25
26
27
28

///

33
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.941 Page 34 of 40

1
2

You may not convict the defendant unless the People have proved
his guilt beyond a reasonable doubt.

3

(Lodgment No. 1, Clerk’s Tr. at 182-83, ECF No. 7-1.) This standard instruction has

4

been held to be an accurate statement of California’s corpus delicti law. People v.

5

Rosales, 222 Cal. App. 4th 1254, 1260 (Cal. App. 2014) (holding CALCRIM No. 359

6

“correctly states the law”). The prosecutor specifically referred to this instruction

7

during his rebuttal argument and urged the jurors to read the entire instruction.

8

(Lodgment No. 2, Rep.’s Tr. vol. 2 at 52, ECF No. 7-3.) The jury also was instructed

9

that the trial court’s instructions constituted the law that applied to the case and to

10

follow the law as the trial court explained it. (Lodgment No. 1, Clerk’s Tr. at 119, ECF

11

No. 7-1.) The trial court instructed the jury specifically about statements regarding the

12

law made by the attorneys during closing arguments, stating:

13
14
15

If you believe that the attorneys’ comments during their closing
arguments when they talk – if they talk about the law and it conflicts with
my instructions, you must follow my instructions. So I want you to pay
careful [attention], follow these instructions, and consider them as a whole.

16
17

(Lodgment No. 2, Rep.’s Tr. vol. 2 at 29, ECF NO. 7-3.) The jury is presumed to

18

follow the trial court’s instructions. See Weeks v. Angelone, 528 U.S. 225, 234 (2000).

19

Thus, even assuming the prosecutor misstated corpus delicti law during closing, given

20

the instructions provided the jury by the trial court, given the instructions provided the

21

jury, it did not “so infect[] the trial with fundamental unfairness” as to result in a denial

22

of due process. See Darden, 477 U.S. at 1181.

23
24

4.

Conclusion

In sum, Petitioner’s prosecutorial misconduct claim is procedurally defaulted. See

25

Coleman, 501 U.S. at 729-30. Even assuming the claim was not barred from review,

26

Amezcua would not be entitled to relief because has cannot establish that his due process

27

rights were violated by the prosecutor’s closing argument. See Darden, 477 U.S. at 193.

28

Claim three is DENIED.
34
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.942 Page 35 of 40

1

D.

2

Lastly, Amezcua contends that trial counsel was ineffective in failing to object to

Ineffective Assistance of Counsel (ground four)

3

the prosecutor’s purported misstatement of the law regarding corpus delicti during

4

closing argument. (Pet. at 9, ECF No. 1.) Respondent argues that the claim must be

5

denied because the state court’s denial of the claim was neither contrary to, nor an

6

unreasonable application of, clearly established law. (Mem. P. & A. Supp. Answer at 15-

7

16, ECF No. 6-1.)

8

1. State Court Decision

9

As with his other claims, Petitioner raised this argument in his petition for review

10

to the California Supreme Court. (Lodgment No. 7, ECF No. 7-11.) This Court looks

11

through the California Supreme Court’s silent denial to the reasoned opinion of the

12

California Court of appeal. See Ylst, 501 U.S. at 805-06.

13

The appellate court denied the claim, stating:

14

In order to establish ineffective assistance of trial counsel, an
appellant must first show that counsel’s performance fell below the
appropriate standard of care, i.e., a significant error or failure to act. Once
error is shown, the defendant must also show prejudice by establishing that
there is a reasonable likelihood a more favorable result would have occurred
in the absence of counsel’s failure. (Strickland v. Washington (1984) 466
U.S. 668, 687.) Amezcua has not met his burden on this issue.

15
16
17
18
19

There is nothing in this record to explain why trial counsel did not
object to the argument, which has been identified on appeal. Given the
considerable deference afforded to trial counsel’s tactical decisions we have
nothing from which we can assess counsel’s performance on this record. As
our Supreme Court has pointed out it is often difficult on appeal to assess
counsel’s failure to take some action that appellate counsel now deems
necessary. In People v. Mendoza Tello (1997) 15 Cal.4th 264, 267-268, the
court noted that in such cases the appellant’s remedy, if any, is by way of a
petition for writ of habeas corpus.

20
21
22
23
24
25
26

///

27

///

28

///
35
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.943 Page 36 of 40

1

We find it unnecessary to address the prejudice prong of Strickland v.
Washington, supra, 466 U.S. 668, other than to observe the challenged
comments of the prosecutor are almost quotes from Culton, supra, 11
Cal.App.4th at page 367, and Tompkins, supra, 185 Cal.App.4th at page
1260. The current record presents no discernable prejudice to the defendant.

2
3
4
5

(Lodgment No. 6 at 18, ECF No. 7-10.)

6

2. Discussion

7

To establish ineffective assistance of counsel, a petitioner must first show his

8

attorney’s representation fell below an objective standard of reasonableness. Strickland

9

v. Washington, 466 U.S. 668, 688 (1984). “This requires showing that counsel made

10

errors so serious that counsel was not functioning as the ‘counsel’ guaranteed the

11

defendant by the Sixth Amendment.” Id. at 687.

12

Amezcua must also show he was prejudiced by counsel’s errors. Id. at 694.

13

Prejudice can be demonstrated by a showing that “there is a reasonable probability that,

14

but for counsel’s unprofessional errors, the result of the proceeding would have been

15

different. A reasonable probability is a probability sufficient to undermine confidence in

16

the outcome.” Id.; see also Fretwell v. Lockhart, 506 U.S. 364, 372 (1993). “The

17

likelihood of a different result must be substantial, not just conceivable.” Richter, 562

18

U.S. at 112 (citing Strickland, 466 U.S. at 693). The Court need not address both the

19

deficiency prong and the prejudice prong if the defendant fails to make a sufficient

20

showing of either one. Id. at 697.
There is a “strong presumption that counsel’s conduct falls within a wide range of

21
22

reasonable professional assistance.” Id. at 686-87. “Surmounting Strickland’s high bar is

23

never an easy task.” Padilla v. Kentucky, 559 U.S. 356, 371 (2010). “Representation is

24

constitutionally ineffective only if it ‘so undermined the proper functioning of the

25

adversarial process’ that the defendant was denied a fair trial.” Strickland, 466 U.S. at

26

687.

27
28

Under the standards of both 28 U.S.C. § 2254(d) and Strickland, judicial review is
“highly deferential and when the two apply in tandem, review is doubly so.” Richter, 562
36
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.944 Page 37 of 40

1

U.S. at 105 (internal quotation marks and citations omitted). As a result, “the question

2

[under § 2254(d)] is not whether counsel’s actions were reasonable. The question is

3

whether there is any reasonable argument that counsel satisfied Strickland’s deferential

4

standard.” Id. The Strickland prejudice analysis is complete in itself and there is no need

5

for an additional harmless error review under Brecht v. Abrahamson, 507 U.S. 619, 637

6

(1993). See Musladin v. Lamarque, 555 F.3d 830, 834 (9th Cir. 2009) (“[W]here a

7

habeas petition governed by AEDPA alleges ineffective assistance of counsel under

8

Strickland v. Washington, 466 U.S. 668 (1984), we apply Strickland’s prejudice standard

9

and do not engage in a separate analysis applying the Brecht standard.”); Avila v. Galaza,

10
11

297 F.3d 911, 918 n.7 (9th Cir. 2002).
Here, Petitioner has not shown defense counsel’s failure to object during closing

12

argument amounted to deficient performance. The Ninth Circuit has indicated that

13

“[b]ecause many lawyers refrain from objecting during opening statement and closing

14

argument, absent egregious misstatements, the failure to object during closing argument

15

and opening statement is within the ‘wide range’ of permissible professional legal

16

conduct.” Cunningham v. Wong, 704 F.3d 1143, 1159 (9th Cir. 2013), (quoting United

17

States v. Necoechea, 986 F.2d 1273, 1281 (9th Cir. 1993)); cf. Zapata v. Vasquez, 788

18

F.3d 1106, 1116 (9th Cir. 2015) (holding that “patent, inflammatory and repeated

19

misconduct” was “egregious”).

20

The prosecutor’s statements concerning corpus delicti rule were not egregious

21

misstatements of the law. As discussed above in section V(C)(3), the prosecutor made

22

two brief references to the corpus delicti rule during argument and rebuttal. And based

23

on the appellate court’s majority decision, the prosecutor’s description of the rule was

24

consistent with California law. The appellate court specifically found that evidence of

25

multiple molestations could be sufficient to provide corroboration of Petitioner’s pretrial

26

admissions. (See Lodgment No. 6 at 9-13, ECF No. 7-10.) While the dissenting justice

27

may have rule differently, this Court defers to the majority decision. See Bradshaw, 546

28

U.S. at 76 (“[A] state court’s interpretation of state law, including one announced on
37
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.945 Page 38 of 40

1

direct appeal of the challenged conviction, binds a federal court sitting in habeas

2

corpus.”). As such, defense counsel’s failure to object to the brief references to corpus

3

delicti law was a reasonable tactical decision. See Yarborough v. Gentry, 540 U.S. 1, 6

4

(2003) (deference to counsel’s tactical decisions in closing is particularly important

5

because of the broad range of legitimate defense strategy at that stage); Necoechea, 986

6

F.2d at 1281 (counsel’s failure to object during closing argument within the wide range

7

of reasonable professional assistance for which a strong presumption of sound judgment

8

is due); see also Clabourne v. Lewis, 64 F.3d 1373, 1383 (9th Cir. 1995) (no error found

9

where counsel may have had many reasons for not objecting or interrupting during

10

opening or closing); Cunningham, 704 F.3d at 1159 (stating that a decision not to object a

11

prosecutor’s comments during closing, in order to avoid highlighting them, was a

12

reasonable strategic decision).
Moreover, defense counsel’s failure to object was not prejudicial. Because the

13
14

prosecutor’s statements during closing were not inconsistent with California law,

15

Petitioner cannot establish a reasonable probability that the result would have been

16

different had defense counsel objected. See Strickland, 466 U.S. at 689; see also Rupe v.

17

Wood, 93 F.3d 1434, 1445 (9th Cir. 1996) (concluding that there was no prejudice when

18

there was no reasonable probability the petitioner would have prevailed on the issue had

19

an objection been raised by defense counsel); James v. Borg, 24 F.3d 20, 27 (9th Cir.

20

1994) (“Counsel’s failure to make a futile motion does not constitute ineffective

21

assistance of counsel.).
Accordingly, the state court’s denial of Petitioner’s ineffective assistance of

22
23

counsel claim was neither contrary to, nor an unreasonable application of, clearly

24

established law. See 28 U.S.C. § 2254(d); Williams, 529 U.S. at 407-08. Claim four is

25

therefore DENIED.

26

///

27

///

28

///
38
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.946 Page 39 of 40

1

VI.

CERTIFICATE OF APPEALABILITY
Under AEDPA, a state prisoner seeking to appeal a district court’s denial of a

2
3

habeas petition must obtain a certificate of appealability. 28 U.S.C. § 2253(c)(1)(A).

4

The district court may issue a certificate of appealability if the petitioner has made a

5

substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). To

6

satisfy this standard, a petitioner must show that “reasonable jurists would find the

7

district court’s assessment of the constitutional claims debatable or wrong.” Slack v.

8

McDaniel, 529 U.S. 473, 484 (2000).

9

The federal rules governing habeas cases brought by state prisoners require a

10

district court that issues an order denying a habeas petition to either grant or deny a

11

certificate of appealability. See Rules Governing § 2254 Cases, Rule 11(a). The Ninth

12

Circuit has noted that the standard for granting a certificate of appealability is “relatively

13

low.” Jennings v. Woodford, 290 F.3d 1006, 1010 (9th Cir. 2002). A petitioner “need

14

not show that he should prevail on the merits,” Lambright v. Stewart, 220 F.3d 1022,

15

1025 (9th Cir. 2000), but may be entitled to a certificate when the “questions are

16

adequate to deserve encouragement to proceed further.” Barefoot v. Estelle, 463 U.S.

17

880, 893 n. 4 (1983) (citation omitted), superseded on other grounds by 28 U.S.C. §

18

2253(c)(2). Here, Petitioner has made “a substantial showing of the denial of a

19

constitutional right,” 28 U.S.C. § 2253(c)(2), and reasonable jurists would find debatable

20

this Court’s assessment of Petitioner’s claim that there was insufficient evidence, due to a

21

purported lack of corpus delicti, to support counts seven, nine and ten. See Slack, 529

22

U.S. at 484. Accordingly, a certificate of appealability is GRANTED on claim one.7 A

23

certificate of appealability is DENIED as to claims two, three and four.

24

///

25

///

26
27
28

7

Petitioner is advised that despite the grant of a limited certificate of appealability, if he wishes to
appeal he must file a notice of appeal within thirty days of the date the judgment is entered. See Rule
11(b), Rules Governing § 2254 Cases.
39
18cv1317 GPC (MSB)

Case 3:18-cv-01317-GPC-MSB Document 9 Filed 05/29/19 PageID.947 Page 40 of 40

1
2

VII. CONCLUSION
Based on the foregoing, the Court DENIES the petition for writ of habeas corpus

3

and GRANTS a limited certificate of appealability as to claim one and DENIES a

4

certificate of appealability as to claims two, three and four.

5

IT IS SO ORDERED.

6

Dated: May 29, 2019

7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
40
18cv1317 GPC (MSB)

APPENDIX D
STATE COURT APPELLATE DECISION

Case 3:18-cv-01317-GPC-MSB Document 7-10 Filed 08/31/18 PageID.813 Page 1 of 26

Filed 3/10/17

NOT TO BE PUBLISHED IN OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions not certified for
publication or ordered published, except as specified by rule 8.1115(b). This opinion has not been certified for publication
or ordered published for purposes of rule 8.1115.

COURT OF APPEAL, FOURTH APPELLATE DISTRICT
DIVISION ONE
STATE OF CALIFORNIA

THE PEOPLE,

D069505

Plaintiff and Respondent,
v.

(Super. Ct. No. SCD258616)

CARLOS AMEZCUA,
Defendant and Appellant.

APPEAL from a judgment of the Superior Court of San Diego County, David M.
Rubin, Judge. Affirmed.
Jill M. Klein, under appointment by the Court of Appeal, for Defendant and
Appellant.
Kamala D. Harris, Attorney General, Gerald A. Engler, Chief Assistant Attorney
General, Julie L. Garland, Assistant Attorney General, Theodore M. Cropley and Ryan H.
Peeck, Deputy Attorneys General, for Plaintiff and Respondent.
In a case involving the molestation of two different victims, a jury found Carlos
Amezcua guilty of six counts of lewd and lascivious acts on a child under age 14. (Pen.

Case 3:18-cv-01317-GPC-MSB Document 7-10 Filed 08/31/18 PageID.814 Page 2 of 26

Code, § 288, subd. (a).)1 The trial court sentenced Amezcua to prison for a term of 45
years to life.
Amezcua contends (1) insufficient evidence supports the convictions for counts 7,
9 and 10 based on the corpus delicti rule because Amezcua's extra-judicial statements
provided the sole evidence to support those convictions; (2) insufficient evidence
supports the convictions for counts 6, 7, 9 and 10 because he did not act with the intent of
arousing, appealing to or gratifying the lust, passions or sexual desires of himself or the
victim; and (3) the prosecutor committed prejudicial misconduct during closing argument
when describing the corpus delicti rule.
We conclude that, based on the application of the corpus delicti rule, counts 6, 7, 9
and 10 are supported by sufficient evidence. In addition, we find no merit to Amezcua's
remaining arguments. Accordingly, we affirm the judgment.
I
FACTUAL AND PROCEDURAL BACKGROUND
This case involves Amezcua's molestation of two female relatives when they were
young girls, Jane Doe 1 and Jane Doe 2.
The molestation first came to light when Jane Doe 1, who was 22 years old at the
time of trial, disclosed to a relative that Amezcua had molested her when she was eight
years old. Family members confronted Amezcua about the allegations, and he admitted

1

Unless otherwise indicated, all further statutory references are to the Penal Code.
2

Case 3:18-cv-01317-GPC-MSB Document 7-10 Filed 08/31/18 PageID.815 Page 3 of 26

to having molested Jane Doe 1. He also disclosed to family members that he had
molested Jane Doe 2, who was 13 years old at the time of trial.
In an interview with police that was video-recorded and played for the jury at trial,
Amezcua admitted to molesting Jane Doe 1 and Jane Doe 2 and described the details of
the molestations.
As to Jane Doe 1, Amezcua told police that on at least three occasions when Jane
Doe 1 was eight or nine years old, he rubbed her buttocks and vagina while cuddling with
her. In addition, Amezcua recalled one occasion when he put Jane Doe 1's hand on his
penis for a few seconds. As to Jane Doe 2, Amezcua stated that he started touching Jane
Doe 2 on the buttocks and vagina over her clothing when she was approximately seven
years old. According to Amezcua, he touched Jane Doe 2 in that manner "a few times"
when he lived at a residence in Riverside County, including one instance during which he
touched Jane Doe 2's bare skin beneath her underwear. Amezcua also stated that later,
when he moved to San Diego and Jane Doe 2 was approximately 10 years old, he
touched Jane Doe 2's buttocks and vagina on one occasion over her clothes. Amezcua
told police that he was "aroused" during the molestation of the two girls, but he claimed
that he never had an erection.
Amezcua was charged with five counts of committing lewd acts against Jane
Doe 1 (counts 1-5) and seven counts of committing lewd acts against Jane Doe 2
(counts 6-12). (§ 288, subd. (a).) The information described the acts that gave rise to
each count. As to the counts concerning Jane Doe 2, three of them were alleged to have
taken place at Amezcua's San Diego residence and four of them at his Riverside County
3

Case 3:18-cv-01317-GPC-MSB Document 7-10 Filed 08/31/18 PageID.816 Page 4 of 26

residence. Counts 6, 9, 10, 11 and 12 were based on allegations that Amezcua touched
Jane Doe 2's vagina. Counts 7 and 8 alleged a touching of Jane Doe 2's buttocks and Jane
Doe 2's chest, respectively.
Jane Doe 1 testified that when she was eight years old, Amezcua molested her in
the same manner on six or seven occasions. Specifically, on each occasion Amezcua
would rub Jane Doe 1's clitoris beneath her underwear, touch her breasts and put her hand
on his erect penis over his clothes. On one occasion Amezcua also put his mouth on Jane
Doe 1's breast and licked her nipple. According to Jane Doe 1, Amezcua suggested that
she not tell anyone about the molestation.
Jane Doe 2 testified that when she was 11 or 12 years old Amezcua molested her
on two occasions, and both occurred at his residence in San Diego. According to Jane
Doe 2, Amezcua touch her vagina on only one occasion. Specifically, Jane Doe 2 stated
that on that occasion, Amezcua caressed her arms and touched her vagina with a "slight
tap" over her clothes. On the second occasion, Amezcua caressed her arm and also
touched her chest near her collarbone but did not touch her vagina. When the prosecutor
followed up with Jane Doe 2 about whether Amezcua touched her vagina on a second
occasion, Jane Doe 2 reiterated that Amezcua did not. When the prosecutor followed up
as to whether Amezcua had molested Jane Doe 2 on more than two occasions, Jane Doe 2
stated that there was no third occasion on which Amezcua molested her. Jane Doe 2
testified that Amezcua told her not to tell anyone about the molestation.
Amezcua testified at trial. He stated that he had touched Jane Doe 1 as he
described during his police interview, but stated that it was done in a "playful" manner
4

Case 3:18-cv-01317-GPC-MSB Document 7-10 Filed 08/31/18 PageID.817 Page 5 of 26

and that he did not touch her to become sexually aroused. He denied that he ever directly
touched Jane Doe 1's clitoris underneath her clothes and claimed that the only time Jane
Doe 1 touched his penis was by accident when he was picking her up.
As to Jane Doe 2, Amezcua testified that he touched her on only two occasions,
stating "I remember two situations with [Jane Doe 2], just two situations." Although
Amezcua provided sparse detail during his testimony about the ways in which he touched
Jane Doe 2 on those two occasions, he did admit that he touched Jane Doe 2's vagina on
one occasion at his San Diego residence.
Later in his testimony, Amezcua admitted that he touched Jane Doe 2's vagina at
the Riverside County residence. On that subject the following testimony was presented at
trial when the prosecutor asked Amezcua about a description of the molestation at the
Riverside County residence that Amezcua had given to police:
"[Prosecutor]: Do you remember the detective asking you, can you tell me
what happened with [Jane Doe 2]? And then you replied, 'It was again,
cuddling, playing. I noticed that -- uh, see if I could touch her, and I did.
In the back again, start . . . in the rear end and rubbed her thighs and again
in her private part.' You reference that section of your interview. Would it
be fair to say that that instance of the touching was not an accident?
"[Amezcua]: Yes, it was not an accident.
"[Prosecutor]: You did it on purpose?
"[Amezcua]: Yes."2

2
Earlier in his testimony Amezcua also seemed to generally admit to this same
molestation at his Riverside County residence when the prosecutor asked him about his
statements to the police about that incident.
5

Case 3:18-cv-01317-GPC-MSB Document 7-10 Filed 08/31/18 PageID.818 Page 6 of 26

Amezcua also testified that he did not touch Jane Doe 2 with any sexual intent and
did not consider himself to be a child molester because he had no desire to penetrate
either of the girls or to have sex with them. Although admitting that he told the police
that he was "aroused" during the molestations, he tried to minimize that statement during
his trial testimony by claiming that "[i]t was aroused in the sense of thinking, I shouldn't
be doing this" and it "wasn't related to . . . sexual desire."
The jury convicted Amezcua of two counts of committing lewd acts against Jane
Doe 1 and four counts of committing lewd acts against Jane Doe 2, but were unable to
reach a verdict on the remaining counts.3 As to Jane Doe 1, the jury convicted Amezcua
in count 2 based on touching Jane Doe 1's vagina, and in count 4 based on placing Jane
Doe 1's hand on his penis. As to Jane Doe 2, the jury convicted Amezcua (1) in count 6
based on touching Jane Doe 2's vagina at the San Diego residence; (2) in count 7 based
on touching Jane Doe 2's buttocks at the San Diego residence; (3) in count 9 based on
touching Jane Doe 2's vagina "skin to skin" at the Riverside County residence; and (4) in
count 10 based on touching Jane Doe 2's vagina "over the clothes, the first time" at the

"[Prosecutor]: You told the detectives you were playing piggyback or goofy
games and that you had touched her — and this was at the [Riverside County] house —
you touched her on her vagina on that occasion.
"[Amezcua]: I think so.
"[Prosecutor]: And then they asked you how many more times it happened. You
said three more times at the [Riverside County] house; is that correct?
"[Amezcua]: I remember two situations with [Jane Doe 2], just two situations."
3

The People eventually dismissed the remaining counts.
6

Case 3:18-cv-01317-GPC-MSB Document 7-10 Filed 08/31/18 PageID.819 Page 7 of 26

Riverside County residence. The jury also made a true finding that Amezcua's crimes
were committed against more than one victim. (§§ 667.61, subds. (b), (c), (e), 1203.066,
subd. (a)(7).)
The trial court sentenced Amezcua to prison for a term of 45 years to life.
Specifically, the trial court ordered that the 15-year-to-life terms for counts 2, 6 and 9 run
consecutively to each other, and that the 15-year-to-life terms for counts 7 and 10 run
concurrently to the other counts, along with a concurrent determinate term of eight years
on count 4.
II
DISCUSSION
A. Based on the Corpus Delicti Rule, the Evidence Was Sufficient
to Support the Convictions in Counts 6, 7, 9 and 10
We first consider Amezcua's contention that the evidence was insufficient to
convict him of three of the counts alleging lewd acts against Jane Doe 2 (counts 7, 9 &
10) because the prosecution did not establish the corpus delicti of those offenses and
improperly premised the convictions solely on Amezcua's extrajudicial statements.
"In every criminal trial, the prosecution must prove the corpus delicti, or the body
of the crime itself—i.e., the fact of injury, loss, or harm, and the existence of a criminal
agency as its cause." (People v. Alvarez (2002) 27 Cal.4th 1161, 1168.) "Though no
statute or constitutional principle requires it, California, like most American jurisdictions,
has historically adhered to the rule that the . . . corpus delicti . . . cannot be proved by
exclusive reliance on the defendant's extrajudicial statements." (Id. at p. 1165.) Put
7

Case 3:18-cv-01317-GPC-MSB Document 7-10 Filed 08/31/18 PageID.820 Page 8 of 26

another way, "[t]he corpus delicti rule requires the prosecution to prove that 'the charged
crime actually happened' exclusive of the accused's extrajudicial statements." (People v.
Ray (1996) 13 Cal.4th 313, 342, italics added.) "This rule is intended to ensure that one
will not be falsely convicted, by his or her untested words alone, of a crime that never
happened." (Alvarez, supra, at p. 1169, italics added.)
Although the corpus delicti rule requires that the prosecution present proof that a
crime occurred independent of the defendant's extrajudicial statements, "[t]he
independent proof may be by circumstantial evidence [citation], and it need not be
beyond a reasonable doubt. A slight or prima facie showing, permitting the reasonable
inference that a crime was committed, is sufficient. [Citation.] If the independent proof
meets this threshold requirement, the accused's admissions may then be considered to
strengthen the case on all issues." (People v. Alcala (1984) 36 Cal.3d 604, 624-625.)
In People v. Jennings (1991) 53 Cal.3d 334, 368, the court explained the minimal
burden of proof required for corpus delicti, and the reasons for the rule. The court said:
"We reemphasize that the quantum of evidence the People must
produce in order to satisfy the corpus delicti rule is quite modest;
case law describes it as a 'slight or prima facie' showing. [Citations.]
This minimal standard is better understood when we consider that
the purpose of the corpus delicti rule is 'to protect the defendant
against the possibility of fabricated testimony which might
wrongfully establish the crime and the perpetrator.' [Citation.] As
one court explained, 'Today's judicial retention of the rule reflects
the continued fear that confessions may be the result of either
improper police activity or the mental instability of the accused, and
the recognition that juries are likely to accept confessions
uncritically.' " (Id. at p. 368.)

8

Case 3:18-cv-01317-GPC-MSB Document 7-10 Filed 08/31/18 PageID.821 Page 9 of 26

We infer from the court's comments that proof of corpus delicti is not intended to
verify each detail of a defendant's out-of-court statements; rather it is to avoid false
confessions, particularly those that might arise from the pressure of police interrogation.
Consistent with the policy underlying the rule, courts in child molestation cases involving
multiple acts, have not required count-by-count proof of corpus delicti. In People v.
Tompkins (2010) 185 Cal.App.4th 1253 (Tompkins), the court squarely held that
"separate evidence is not required as to each individual count to establish the corpus
delicti; rather, evidence that multiple molestations took place will establish the corpus
delicti for multiple counts." (Id. at p. 1260.)
The approach taken in Tompkins, supra, 185 Cal.App.4th 1253 is based on the
observation that "[t]he testimony of young children concerning a series of events cannot
be as perfect as a phonographic record thereof. It would practically close the doors
against the prosecution of many of such wrongs if girls of tender years were required to
give detailed and unvarying description of each transaction and its circumstances."
(People v. Durfee (1947) 79 Cal.App.2d 632, 634.)4
In Tompkins, the defendant was convicted of multiple counts of lewd acts against
his minor daughter and argued that based on the corpus delicti rule, he should not have

4
Similar to the liberal approach taken in cases considering whether the corpus
delicti rule has been satisfied in child molestation cases, when sufficiency of the evidence
of a child molestation conviction is challenged, courts apply the rule that a defendant may
properly be convicted of acts of child molestation based on a witness's testimony that the
defendant generally molested her in a specific manner over the course of time, even if the
witness is unable to provide details about "precise date, time, place or circumstance."
(People v. Jones (1990) 51 Cal.3d 294, 315.)
9

Case 3:18-cv-01317-GPC-MSB Document 7-10 Filed 08/31/18 PageID.822 Page 10 of 26

been convicted of six of the counts because "the only evidence to support those counts
was his own statements" to an investigator, in which he described the specific acts of
molestation. (Tompkins, supra, 185 Cal.App.4th at p. 1259.) Tompkins concluded that
because the victim's testimony generally described numerous instances of molestation,
including that "defendant molested her more than once but less than 50 times, [that] she
had visitation with defendant approximately every other weekend during that period, and
defendant molested her on some, but not all, of those visits," and she also told an
investigator that the defendant had touched her " 'on many occasions,' " the evidence
"was amply sufficient" to establish the corpus delicti for the six specific counts of
molestation that defendant challenged. (Id. at p. 1260.)
In People v. Culton (1992) 11 Cal.App.4th 363 (Culton), the corpus delicti for the
defendant's conviction for 10 counts of committing a lewd act on a child was supplied by
expert medical testimony from a doctor who performed a forensic genital examination of
the victim. (Id. at pp. 365, 368.) Specifically, the doctor testified that the victim's
physical condition was consistent with having been abused over a long period of time,
which established the corpus delicti for all the offenses. (Id. at p. 372.)
Jane Doe 2 did not testify at trial to any of the acts described in counts 7, 9 and 10,
as she described only two incidents: one in which Amezcua touched her arms and vagina
at the San Diego residence; and one in which Amezcua touched her arms and her chest
near the collarbone at the San Diego residence. However, during Amezcua's own
testimony at trial, he admitted to committing the act charged in count 10, which was

10

Case 3:18-cv-01317-GPC-MSB Document 7-10 Filed 08/31/18 PageID.823 Page 11 of 26

touching Jane Doe 2's vagina "over the clothes, the first time" at the Riverside County
residence.
Specifically, as we have described above, Amezcua generally seemed to admit at
trial that he touched Jane Doe 2 at his Riverside County residence as he described during
his police interview.
"[Prosecutor]: You told the detectives you were playing piggyback or goofy
games and that you had touched her — and this was at the [Riverside County]
house — you touched her on her vagina on that occasion.
"[Amezcua]: I think so.
"[Prosecutor]: And then they asked you how many more times it happened. You
said three more times at the [Riverside County] house; is that correct?
"[Amezcua]: I remember two situations with [Jane Doe 2], just two situations."
Later in his trial testimony, Amezcua was asked about an admission during his police
interview about the first incident at the Riverside County residence, and he specifically
admitted that he purposely touched Jane Doe 2's vagina on that occasion.
"[Prosecutor]: Do you remember the detective asking you, can you tell me
what happened with [Jane Doe 2]? And then you replied, 'It was again,
cuddling, playing. I noticed that -- uh, see if I could touch her, and I did.
In the back again, start in the rear end and rubbed her thighs and again in
her private part.' You reference that section of your interview. Would it be
fair to say that that instance of the touching was not an accident?
"[Amezcua]: Yes, it was not an accident.
"[Prosecutor]: You did it on purpose?
"[Amezcua]: Yes."
Amezcua seeks to distinguish both Culton, supra, 11 Cal.App.4th 363 and
Tompkins, supra, 185 Cal.App.4th 1253, thus arguing his proposed count-by-count
11

Case 3:18-cv-01317-GPC-MSB Document 7-10 Filed 08/31/18 PageID.824 Page 12 of 26

application of corpus delicti in child molestation cases is warranted. We find his
proposed distinctions of controlling authority are not persuasive.
Amezcua contends Culton, supra, 11 Cal.App.4th 363 is distinguishable because
there was medical testimony in that case which supported a finding of child molestation,
perhaps on multiple occasions. In this case, there was no medical evidence. However, in
Culton the defendant was convicted of multiple counts of child molestation, without
independent evidence on a count-by-count basis. The court reasoned that the purpose of
the corpus delicti rule did not require such an expanded form of corroboration.
Similarly, Amezcua argues Tompkins, supra, 185 Cal.App.4th 1253, which like
Culton, supra, 11 Cal.App.4th 363, was decided by Division Two of our court, is
distinguishable. The attempted distinction is that the Tompkins case relied on generalized
testimony regarding on going child molestation, whereas Jane Doe 2's testimony in this
case was specific. Again, we find the proposed distinction is not persuasive.
The court in Tompkins was very clear in its analysis of the application of corpus
delicti in multiple count child molestation cases. The court said: "We read Culton[,
supra, 11 Cal.App.4th 363] as standing for the proposition that separate evidence is not
required as to each individual count to establish the corpus delicti; rather, evidence that
multiple molestations took place will establish the corpus delicti for multiple counts."
(Tompkins, supra, 185 Cal.App.4th at p. 1260.)
We are persuaded by the opinions in Culton, supra, 11 Cal.App.4th 363 and
Tompkins, supra, 185 Cal.App.4th 1253 and follow their reasoning. We also find some
independent evidence in Amezcua's testimony. Although Jane Doe 2 testified that no
12

Case 3:18-cv-01317-GPC-MSB Document 7-10 Filed 08/31/18 PageID.825 Page 13 of 26

molestation occurred in Riverside County, Amezcua's testimony provides some
independent evidence of such acts.
As we have quoted above, Amezcua testified that some "playful activities"
involving Jane Doe 2, including touching her vagina, occurred in Riverside County. Jane
Doe 2 also testified there was only one occasion of molestation, and that occurred in San
Diego. Again, as we have quoted above, Amezcua testified there were "two instances"
involving the touching of Jane Doe 2. Although Amezcua's testimony was often vague or
inconsistent, a reasonable jury could conclude his testimony provided some independent
evidence that Jane Doe 2 was molested twice, once in Riverside County and once in San
Diego.
Based on the controlling appellate authority and on drawing all reasonable
inferences in favor of the decision of the trier of fact, we are satisfied that the challenged
conviction for counts involving Jane Doe 2 are supported by sufficient evidence of
corpus delicti. Accordingly, we reject Amezcua's arguments to the contrary.
B. Substantial Evidence Supports a Finding That Amezcua
Touched Jane Doe 2 with Sexual Intent
Amezcua contends that none of the lewd act convictions arising out of his
touching of Jane Doe 2 are supported by sufficient evidence because the evidence does
not support a finding that he performed the touching with any sexual intent.
In considering a challenge to the sufficiency of the evidence, "we review the entire
record in the light most favorable to the judgment to determine whether it contains
substantial evidence—that is, evidence that is reasonable, credible, and of solid value—
13

Case 3:18-cv-01317-GPC-MSB Document 7-10 Filed 08/31/18 PageID.826 Page 14 of 26

from which a reasonable trier of fact could find the defendant guilty beyond a reasonable
doubt. [Citation.] We presume every fact in support of the judgment the trier of fact
could have reasonably deduced from the evidence. [Citation.] If the circumstances
reasonably justify the trier of fact's findings, reversal of the judgment is not warranted
simply because the circumstances might also reasonably be reconciled with a contrary
finding. [Citation.] 'A reviewing court neither reweighs evidence nor reevaluates a
witness's credibility.' " (People v. Albillar (2010) 51 Cal.4th 47, 60.)
Amezcua was convicted of committing lewd acts against a child under section
288, subdivision (a) for touching Jane Doe 2's vagina. That provision makes it a crime
when "any person . . . willfully and lewdly commits any lewd or lascivious act . . . upon
or with the body, or any part or member thereof, of a child who is under the age of 14
years, with the intent of arousing, appealing to, or gratifying the lust, passions, or sexual
desires of that person or the child."
"[S]ection 288 'prohibits all forms of sexually motivated contact with an underage
child. . . .' [Citation.] Thus, any touching of a child under the age of 14 is a felony
offense 'even if the touching is outwardly innocuous and inoffensive, if it is accompanied
by the intent to arouse or gratify the sexual desires of either the perpetrator or the victim.'
[Citations.] . . . [¶] To determine whether a defendant acted with sexual intent, all the
circumstances are examined. Relevant factors include the nature and manner of the
touching, the defendant's extrajudicial statements, the relationship of the parties and 'any
coercion, bribery or deceit used to obtain the victim's cooperation or avoid detection.'

14

Case 3:18-cv-01317-GPC-MSB Document 7-10 Filed 08/31/18 PageID.827 Page 15 of 26

[Citation.] The requisite intent 'must be inferred from all the circumstances . . . .' " (In re
R.C. (2011) 196 Cal.App.4th 741, 749-750.)
Here, substantial evidence supports a finding that Amezcua acted with sexual
intent in touching Jane Doe 2 . The strongest evidence of Amezcua's intent in touching
Jane Doe 2 is found in his own admissions during the police interview. Amezcua told the
police that he was "aroused," although without an erection, when he touched Jane Doe 1
and Jane Doe 2. Further, Jane Doe 1 testified that Amezcua's penis was erect when he
made her touch it during the molestations. From this testimony, a reasonable juror could
infer that touching young girls is arousing to Amezcua because it is sexually stimulating
to him, and that is why he committed the acts.
Although Amezcua attempted during his trial testimony to minimize his admission
to being "aroused" during the molestations by claiming that he meant "aroused in the
sense of thinking, I shouldn't be doing this," and claimed that he did not touch Jane Doe 2
for any sexual purpose, it was for the jury to decide whether to credit Amezcua's trial
testimony on that issue. A reasonable juror could decide that Amezcua's attempt to
minimize his admission to police was not credible because it contradicted his earlier
statements and there is no sensible explanation for why someone in Amezcua's position
would touch a young girl's vagina except for the purpose of sexual stimulation.
Amezcua's sexual intent in touching Jane Doe 2 is also shown by evidence
supporting a finding that Amezcua knew that what he was doing was wrong.
Specifically, (1) Amezcua told Jane Doe 2 not to tell anyone about the touching;
(2) Amezcua admitted that he knew he was "not supposed to do this" while he was
15

Case 3:18-cv-01317-GPC-MSB Document 7-10 Filed 08/31/18 PageID.828 Page 16 of 26

touching Jane Doe 2; and (3) Amezcua described his thought process upon initiating the
molestation as "[my] stupid brain would take me down that way." A reasonable juror
could infer that because Amezcua viewed his acts as improper, because the touching
involved a young girl in various places, including her vagina, and Amezcua used the
word "aroused" when explaining his state of mind, Amezcua was doing the acts with
sexual intent.
In sum, under the totality of the circumstances, we conclude that ample evidence
supports a finding that Amezcua's touching of Jane Doe 2 was done "with the intent of
arousing, appealing to, or gratifying the lust, passions, or sexual desires of that person or
the child." (§ 288, subd. (a).)
C. There Was No Prosecutorial Misconduct
Amezcua contends, for the first time on appeal, that the prosecutor committed
misconduct during closing argument by reason of his discussion of proof requirements
for corpus delicti as to some of the counts regarding Jane Doe 2. Amezcua did not object
to the prosecutor's arguments in the trial court. He claims an objection would have been
futile and if the issue has been forfeited, that trial counsel provided ineffective assistance.
We will find the issues regarding the prosecutor's arguments have been forfeited
by failure to raise them in the trial court. We will also find Amezcua has not established
ineffective assistance of counsel. Thus, we will reject his contentions regarding alleged
prosecutorial misconduct.
Where a prosecutor uses deceptive or reprehensible methods to attempt to
persuade a jury, he or she has committed misconduct. (People v. Fuvia (2012) 53
16

Case 3:18-cv-01317-GPC-MSB Document 7-10 Filed 08/31/18 PageID.829 Page 17 of 26

Cal.4th 622, 679.) However, a defendant may not raise an issue regarding the
prosecutor's arguments for the first time on appeal. (People v. Samayoa (1997) 15
Cal.4th 795, 841.) Failure to timely object can be excused only where an objection
would have been futile or where the harm caused by the prosecutor's argument cannot be
cured by objection. (Fuvia, supra, at p. 679; People v. Jablonski (2006) 37 Cal.4th 774,
835; People v. Morales (2001) 25 Cal.4th 34, 43-44.)
During closing arguments, the prosecutor said that he could prove corpus delicti of
the offenses involving Jane Doe 2 by showing multiple molestations of her had occurred.
Amezcua now claims such comments were erroneous and caused him prejudice. He
recognizes failure to object during argument ordinarily forfeits the claim. Amezcua
claims, without support in the record, that an objection would have been futile. We find
nothing in the record to show that timely objection and admonition would not have cured
any alleged error. The jury had been properly instructed on the principles of corpus
delicti, and they had been told the judge was the person who stated the law, not the
attorneys. We find nothing in the record to justify relieving Amezcua of the application
of the long established rule that failure to timely object to arguments results in forfeiture
of the issue. Accordingly, we do not discuss the merits of Amezcua's contentions on this
issue.
In order to avoid the impact of forfeiture, appellate counsel offers the usual backup
argument that trial counsel was ineffective for failing to object. We also reject this
contention.

17

Case 3:18-cv-01317-GPC-MSB Document 7-10 Filed 08/31/18 PageID.830 Page 18 of 26

In order to establish ineffective assistance of trial counsel, an appellant must first
show that counsel's performance fell below the appropriate standard of care, i.e., a
significant error or failure to act. Once error is shown, the defendant must also show
prejudice by establishing that there is a reasonable likelihood a more favorable result
would have occurred in the absence of counsel's failure. (Strickland v. Washington
(1984) 466 U.S. 668, 687.) Amezcua has not met his burden on this issue.
There is nothing in this record to explain why trial counsel did not object to the
argument, which has been identified on appeal. Given the considerable deference
afforded to trial counsel's tactical decisions we have nothing from which we can assess
counsel's performance on this record. As our Supreme Court has pointed out it is often
difficult on appeal to assess counsel's failure to take some action that appellate counsel
now deems necessary. In People v. Mendoza Tello (1997) 15 Cal.4th 264, 267-268, the
court noted that in such cases the appellant's remedy, if any, is by way of a petition for
writ of habeas corpus.
We find it unnecessary to address the prejudice prong of Strickland v. Washington,
supra, 466 U.S. 668, other than to observe the challenged comments of the prosecutor are
almost quotes from Culton, supra, 11 Cal.App.4th at page 367, and Tompkins, supra,
185 Cal.App.4th at page 1260. The current record presents no discernable prejudice to
the defendant.

18

Case 3:18-cv-01317-GPC-MSB Document 7-10 Filed 08/31/18 PageID.831 Page 19 of 26

DISPOSITION
The judgment is affirmed.

HUFFMAN, Acting P. J.
I CONCUR:

O'ROURKE, J.

19

Case 3:18-cv-01317-GPC-MSB Document 7-10 Filed 08/31/18 PageID.832 Page 20 of 26

IRION, J., Dissenting.

I disagree with my colleagues' analysis of the corpus delicti challenge raised in
Amezcua's appeal. As I will explain, application of the relevant case law on the corpus
delicti rule leads me to conclude that counts 7 and 9 are not supported by sufficient
evidence. I would accordingly reverse the judgment as to those counts.
I agree with my colleagues that "[t]he corpus delicti rule requires the prosecution
to prove that 'the charged crime actually happened' exclusive of the accused's
extrajudicial statements." (People v. Ray (1996) 13 Cal.4th 313, 342, italics added.) I
further agree that case law establishes that the corpus delicti rule may be applied in a
liberal manner in child molestation cases. (People v. Tompkins (2010) 185 Cal.App.4th
1253 (Tompkins); People v. Culton (1992) 11 Cal.App.4th 363 (Culton).) Specifically, in
child molestation cases "separate evidence is not required as to each individual count to
establish corpus delicti; rather, evidence that multiple molestations took place will
establish corpus delicti for multiple counts." (Tompkins, at p. 1260, italics added.)
In Tompkins, the corpus delicti rule was satisfied for the six specific counts of
molestation alleged against the defendant because the victim testified in a general manner
about numerous instances of molestation, including that "defendant molested her more
than once but less than 50 times, she had visitation with defendant approximately every
other weekend during that period, and defendant molested her on some, but not all, of
those visits," and she told an investigator that the defendant had touched her " 'on many
occasions.' " (Tompkins, supra, 185 Cal.App.4th at p. 1260.) Similarly in Culton, the

Case 3:18-cv-01317-GPC-MSB Document 7-10 Filed 08/31/18 PageID.833 Page 21 of 26

corpus delicti rule was satisfied for the 10 counts of lewd acts alleged against the
defendant because a doctor testified that based on his physical examination of the victim,
her condition was consistent with being molested multiple times. (Culton, supra, 11
Cal.App.4th at p. 372.)
The rule established in Tompkins and Culton is that when a victim of child
molestation is unable to provide an exact description of each instance of molestation,
proof of the corpus delicti for multiple counts of molestation will be satisfied by evidence
that the victim was sexually molested on multiple unspecified occasions. The rule exists
because "[i]t would practically close the doors against the prosecution of many of such
wrongs if girls of tender years were required to give detailed and unvarying description of
each transaction and its circumstances." (People v. Durfee (1947) 79 Cal.App.2d 632,
634.) Thus, for instance, in this case if Jane Doe 2 had been unable to recall how many
times Amezcua molested her and was unable to relate the details of the molestation, but
she was able to testify in general that Amezcua molested her on multiple occasions over
a period of time, that evidence would amply satisfy the requirements of the corpus delicti
rule because it would establish that "multiple molestations took place." (Tompkins,
supra, 185 Cal.App.4th at p. 1260.)
However, that is simply not the evidence presented in this case. To the contrary,
Jane Doe 2 was able to remember the molestation in detail and was very clear in
testifying that Amezcua touched her on only two specific occasions. In describing those
two occasions, Jane Doe 2 unambiguously testified that the molestation was not
perpetrated on an ongoing basis or on multiple unspecified occasions. In fact, when
2

Case 3:18-cv-01317-GPC-MSB Document 7-10 Filed 08/31/18 PageID.834 Page 22 of 26

asked whether "there was a third time that [Amezcua] touched you that made you
uncomfortable," Jane Doe 2 clearly answered, "No."1
My colleagues suggest that Amezcua's testimony could be interpreted to provide
evidence that Amezcua molested Jane Doe 2 on an ongoing basis on multiple occasions
because he referred to engaging in "playful" activities with Jane Doe 2. I disagree. The
testimony to which my colleagues refer occurred during defense counsel's examination of
Amezcua. In an attempt to develop Amezcua's defense that he did not touch the girls in a
sexual manner, defense counsel first asked Amezcua about his intent in touching Jane
Doe 1, and Amezcua answered that he always touched her in a "playful manner."
Turning to the subject of Jane Doe 2, defense counsel asked, "What kind of touchings
occurred with [Jane Doe 2]?" Amezcua answered, "[Jane Doe 2] was, again, always in a
playful manner." During this portion of his testimony, Amezcua said nothing in my view
that could be taken as an admission that he molested Jane Doe 2 on multiple unspecified
occasions over the course of time. Indeed, when specifically asked by the prosecutor
how many times he molested Jane Doe 2, Amezcua stated, "I remember two situations
with [Jane Doe 2], just two situations."

1
My colleagues accurately summarize the content of Jane Doe 2's testimony,
acknowledging that Jane Doe 2 testified Amezcua touched her on two occasions.
Specifically, Amezcua touched her vagina on only one occasion and on the second
occasion, Amezcua caressed her arm and also touched her chest near her collarbone but
did not touch her vagina. As my colleagues recognize, "[w]hen the prosecutor followed
up as to whether Amezcua had molested Jane Doe 2 on more than two occasions, Jane
Doe 2 stated that there was no third occasion on which Amezcua molested her." (Maj.
opn, ante, at p. 4.)
3

Case 3:18-cv-01317-GPC-MSB Document 7-10 Filed 08/31/18 PageID.835 Page 23 of 26

Accordingly, in this case there is simply no evidence that Amezcua committed
multiple molestations of Jane Doe 2 on unspecified occasions over the course of time
sufficient to satisfy the liberal approach to the corpus delicti rule for child molestation
cases as described in Tompkins and Culton.
As the exception to the corpus delicti rule described in Tompkins and Culton does
not apply here, in my view the correct analysis is to determine whether, under the
normally applicable corpus delicti rules, the evidence presented at trial — apart from
Amezcua's extrajudicial statements — creates a reasonable inference that Amezcua
committed the lewd acts alleged in counts 7, 9 and 10.2
Turning to those three counts, count 7 was based on the finding that Amezcua
touched Jane Doe 2's buttocks at the San Diego residence; count 9 was based on the
finding that Amezcua touched Jane Doe 2's vagina "skin to skin" at the Riverside County
residence; and count 10 was based on the finding that Amezcua touched Jane Doe 2's
vagina "over the clothes, the first time" at the Riverside County residence.
As an initial matter, I would note that Jane Doe 2's testimony does not supply
evidence to satisfy the corpus delicti rule as to the challenged counts because, as my
colleagues accurately point out, "Jane Doe 2 did not testify at trial to any of the acts
described in counts 7, 9 and 10, as she described only two incidents: one in which
Amezcua touched her arms and vagina at the San Diego residence; and one in which

2
Amezcua does not argue that the corpus delicti rule bars his conviction for the
lewd act charged in count 6, consisting of touching Jane Doe 2's vagina at the San Diego
residence, as Jane Doe 2's testimony provided evidence of that count.
4

Case 3:18-cv-01317-GPC-MSB Document 7-10 Filed 08/31/18 PageID.836 Page 24 of 26

Amezcua touched her arms and her chest near the collarbone at the San Diego residence."
(Maj. opn, ante, at p. 10.)
However, Amezcua's own trial testimony provides evidence to satisfy the corpus
delicti rule for count 10 because it creates a reasonable inference that Amezcua touched
Jane Doe 2's vagina, over her clothes, at the Riverside County residence. Specifically,
Amezcua admitted at trial that he touched Jane Doe 2 at his Riverside County residence
on two occasions:
"[Prosecutor]: You told the detectives you were playing piggyback or goofy
games and that you had touched her — and this was at the [Riverside County]
house — you touched her on her vagina on that occasion.
"[Amezcua]: I think so.
"[Prosecutor]: And then they asked you how many more times it happened. You
said three more times at the [Riverside County] house; is that correct?
"[Amezcua]: I remember two situations with [Jane Doe 2], just two situations."
Amezcua also admitted that he purposely touched Jane Doe 2's vagina during the first
incident at the Riverside County residence:
"[Prosecutor]: Do you remember the detective asking you, can you tell me
what happened with [Jane Doe 2]? And then you replied, 'It was again,
cuddling, playing. I noticed that -- uh, see if I could touch her, and I did.
In the back again, start in the rear end and rubbed her thighs and again in
her private part.' You reference that section of your interview. Would it be
fair to say that that instance of the touching was not an accident?
"[Amezcua]: Yes, it was not an accident.
"[Prosecutor]: You did it on purpose?
"[Amezcua]: Yes."

5

Case 3:18-cv-01317-GPC-MSB Document 7-10 Filed 08/31/18 PageID.837 Page 25 of 26

Amezcua denied at trial that he ever touched Jane Doe's vagina in a skin-to-skin
touching. Therefore, his trial testimony about the incidents involving Jane Doe 2 at the
Riverside County residence must be understood as an admission of a touching over Jane
Doe 2's clothes.
Based on these admissions during Amezcua's trial testimony, sufficient evidence
independent of Amezcua's extrajudicial statements, supports a finding that Amezcua
committed the crime of touching Jane Doe 2's vagina, over her clothes, at the Riverside
County residence as charged in count 10. Accordingly, the corpus delicti rule does not
undermine Amezcua's conviction in count 10.
However, no evidence was presented at trial, independent of Amezcua's
extrajudicial statements, that Amezcua touched Jane Doe 2's buttocks at the San Diego
residence as alleged in count 7 or that he touched Jane Doe's vagina, skin-to-skin at the
Riverside County residence as alleged in count 9. Neither Jane Doe 2's trial testimony
nor Amezcua's trial testimony described such acts. The only evidence that such acts
occurred is in Amezcua's extrajudicial statements. Accordingly, the convictions in counts
7 and 9 are not supported by sufficient evidence due to the operation of the corpus delicti
rule.

6

Case 3:18-cv-01317-GPC-MSB Document 7-10 Filed 08/31/18 PageID.838 Page 26 of 26

I would therefore reverse the convictions in counts 7 and 9 because, due to the
corpus delicti rule, they are not supported by substantial evidence.

IRION, J.

03/10/2017

7

APPENDIX E
CIVIL DOCKETS FOR DISTRICT COURT
AND NINTH CIRCUIT

CM/ECF-casd

https://ecf.casd.uscourts.gov/cgi-bin/DktRpt.pl723545926l286942,.
APPEAL,CLOSED,HABEAS,HabeasPSLC,REOPEN
U.S. District Court

Southern District of California (San Diego)
CIVIL DOCKET FOR CASE #: 3:18-cv-01317-GPC-MSB

Amezcua v. Lizarraga et at

Date Filed: 06/18/2018

Assigned to: Judge Gonzalo P. Curiel

Date Terminated: 05/29/2019

Referred to: Magistrate Judge Michael S. Berg

Jury Demand: None

Case in other court: USCA, 19-55910

Nature of Suit: 530 Habeas Corpus

Cause: 28:2254 Petition for Writ of Habeas Corpus (State)

(General)
Jurisdiction: Federal Question

Petitioner

Carlos Amezcua

represented by Charles R. Khoury , Jr

AY6574

Law Offices of Charles R. Khoury

Mule Creek Stale Prison

P.O. Box 791

P.O. Box 409060
lone, CA 95640

Del Mar, CA 92014
(858) 764-0644
Fax:(858)876-1977

Email: charliekhouryjr@yahoo.com
LEAD ATTORNEY

ATTORNEY TO BE NOTICED

V.

Respondent

Joe A. Lizarraga
Warden

represented by Attorney General
State of California

Office of the Attorney General
600 West Broadway
Suite 1800

San Diego, CA 92101-3702
(619)645-2076
Fax:(619)645-2313

Email: docketingsdawt@doj.ca.gov
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Jennifer Anne Jadovitz

Office of the Attorney General
600 West Broadway
Suite 1800

San Diego, CA 92101
(619)738-9213

Email: jennifer.jadovitz@doj.ca.gov

1 of 4

7/25/2020, 3:04 PM

https://ccf.casd.uscourts.gov/cgi-bin/DktRpt.pl?235459261286942.

CM/ECF - easel

LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Respondent
Xavier Beccrra

The Attorney General ofthe State of
California, Additional Respondant

represented by Attorney General
(See above for address)
LEAD ATTORNEY

ATTORNEY TO BE NOTICED

Date Filed

#

Docket Text

06/18/2018

1

Petition for Writ of Habeas Corpus against Xavier Becerra, Joe A. Lizarraga, filed
by Carlos Amezcua. ($5 Filing Fee, Fee Not Paid, IFP Not Filed) (Attachments: #
i Civil Cover Sheet)

The new case number is 3:18-cv-1317-GPC-NLS. Judge Gonzalo P. Curiel and

Magistrate Judge Nita L. Stormes are assigned to the case.[Cave in Screening]
(jms) (Entered: 06/19/2018)
06/26/2018

2

ORDER DISMISSING CASE Without Prejudice. If Petitioner wishes to proceed
with this case, he must submit, no later than August 24, 2018, a copy of this Order
with the $5.00 fee or with adequate proof of his inability to pay the fee. Signed by

Judge Gonzalo P. Curiel on 6/26/18.(All non-registered users served via U.S. Mail
Service & blank IFP form mailed to Petitioner)(dlg) (Entered: 06/26/2018)
06/26/2018

->

07/10/2018

4

Fee for Habeas Petition: Paid on 6/26/2018. (Receipt Number: 101839) (no
document attached) (jms) (Entered: 06/26/2018)

Order Reopening Case and Setting Briefing Schedule - Motion to Dismiss due
8/31/18 Opposition to Motion due 10/1/18 OR Answer by Respondent due
8/31/2018 Traverse by Petitioner due 10/1/2018. Signed by Magistrate Judge Nita
L. Stormes on 7/5/18.(All non-registered users served via U.S. Mail Service)(NEF

regenerated to send Petition to Attorney General) (dig) (Entered: 07/10/2018)
07/24/2018

5

NOTICE of Appearance by Jennifer Anne Jadovitz on behalfof Joe A. Lizarraga
(Jadovitz, Jennifer)Attorney Jennifer Anne Jadovitz added to party Joe A.
Lizarraga(pty:res) (jms). (Entered: 07/24/2018)

08/31/2018

6

RESPONSE to 1 Petition for Writ of Habeas Corpus, by Joe A. Lizarraga.

(Attachments: # 1 Memo of Points and Authorities Memo of P's And A's)(Jadovitz,
Jennifer) (dsn) (Entered: 08/31/2018)
08/31/2018

7

NOTICE of Lodgment of State Court Record by Joe A. Lizarraga re 6 Response to
Habeas Petition (Attachments: # I Lodgment 1, # 2 Lodgment 2 - RT 1 of 5, # 3
Lodgment 2 - RT2 of 5, #4 Lodgment 2 - RT 3 of 5, # 5 Lodgment 2 - RT 4 of 5,

# 6 Lodgment 2 - RT 5 of 5, § 7 Lodgment 3, # 8 Lodgment 4, # 9 Lodgment 5, #
10 Lodgment 6, # 11 Lodgment 7, # 12 Lodgment 8)(Jadovitz, Jennifer) (dsn)
(Entered: 08/31/2018)
11/06/2018

2 of 4

8

ORDER OF TRANSFER. Magistrate Judge Nita L. Stormes is no longerassigned.
Case reassigned to Magistrate Judge Michael S. Berg for all further proceedings.

7/25/2020, 3:04 PM

https://ecf.casd.uscourts.gov/cgi-bin/DktRpt.pl7235459261286942...

CM/ECF - casd

The new case number is 18cv01317-GPC-MSB. Signed by Magistrate Judge Nita
L. Stormes on 11/6/18.(A11 non-registered users served via U.S. Mail Service)(dlg)
(Entered: 11/07/2018)
05/29/2019

9

05/29/2019

10

ORDER: (1) Denying Petition for Writ of Habeas Corpus and (2) Granting
Certificate of Appealability in Part and Denying in Part. Signed by Judge Gonzalo
P. Curiel on 5/29/2019. (All non-registered users served via U.S. Mail Service)
(tcf) (jao). (Entered: 05/29/2019)
CLERK'S JUDGMENT. IT IS SO ORDERED AND ADJUDGED that the Court

DENIES the petition for writ of habeas corpus and GRANTS a limited certificate
ofappealability as to claim one and DENIES a certificate of appealability as to
claims two, three and four. (All non-registered users served via U.S. Mail Service)
(tcf) (jao). (Entered: 05/29/2019)
07/25/2019

ii MOTION re L0 Clerk's Judgment, by Carlos Amezcua. (Attachments: # I

Declaration of assisting atty, # 2 Declaration of sister to petitioner, # 3 Declaration
second dec of sister, # 4 Memo of Points and Authorities)(Khoury,

Charles)Attorney Charles R. Khoury, Jr added to party Carlos Amezcua(pty:pet)
(jms). Modified on 7/31/2019 (dig). (Entered: 07/25/2019)
07/31/2019

11

ORDER granting JT Petitioner's Motion to Re-Open Time to Appeal. Accordingly,

pursuant to Federal Rule of Appellate Procedure 4(a)(6), Petitioner has 14days
from the date of entry of the instant Orderto file his notice of appeal of the order
entering judgment on May 29, 2019 denying his petition for writ of habeas corpus
and granting a limited certificate ofappealability as to Claim Oneand denying a
certificate ofappealability as to claims two, three and four. Signed by Judge
Gonzalo P. Curiel on 7/31/2019. (akr) (Entered: 07/31/2019)
08/02/2019

11 MOTION for Leave to Appeal in forma pauperis by Carlos Amezcua.

(Attachments: # I Declaration for IFP status)(Khoury, Charles), (akr). (Entered:
08/02/2019)
08/02/2019

14 NOTICE OF APPEAL to the 9th Circuit as to K) Clerk's Judgment by Carlos

Amezcua. IFP Filed. (Notice of Appeal electronically transmitted to the US Court
of Appeals.) (Khoury, Charles). (Modified on 8/2/2019: In 9 Order, the US District
Court granted in part a Certificate of Appealability.) (akr). (Entered: 08/02/2019)
08/02/2019

15

ORDER denying J_3 Petitioner'sMotion for In Forma Pauperis Status. Petitioner
has failed to comply with the requirements of Rule 24(a)(1). Accordingly, the
Court DENIES Petitioner's request for in forma pauperis in this Court. Signed by
Judge Gonzalo P. Curiel on 8/2/2019. (Order electronically transmitted to the US

Court of Appeals. All non-registered users served via U.S. Mail Service.) (akr)
(Entered: 08/02/2019)
08/05/2019

16

USCA Case Number 19-55910 for \4 Notice of Appeal to the 9th Circuit filed by
Carlos Amezcua. (akr) (Entered: 08/05/2019)

08/05/2019

11

USCA Time Schedule Order as to .14 Notice of Appeal to the 9th Circuit filed by
Carlos Amezcua. (akr) (Entered: 08/05/2019)

10/28/2019

13. ORDER of USCA as to 14 Notice of Appeal to the 9th Circuit filed by Carlos

Amezcua. Appellant's motion for leave to proceed in forma pauperis is granted.
The Clerk shall change the docket to reflect appellant's in forma pauperis status.

3 of 4

7/25/2020, 3:04 PM

https://ecf.casd.uscourts.gov/cgi-bin/DktRpt.pl7235459261286942.

CM/ECF - casd

The motion of Charles R. Khoury Jr., Esq., for leave to withdraw as retained
counsel of record and to be appointed under the Criminal Justice Act is granted.
Briefing schedule issued, (akr) (Entered: 10/28/2019)
04/03/2020

19

ORDER of USCA as to 14 Notice of Appeal to the 9th Circuit filed by Carlos

Amezcua. Appellant's unopposed motion for an extension of time to file the

opening briefis granted. Briefing schedule issued, (akr) (Entered: 04/03/2020)
04/06/2020

20

ORDER of USCA as to 14 Notice of Appeal to the 9th Circuit filed by Carlos

Amezcua. Appellant's motion for an extension of time to file the opening briefis
granted. Briefing schedule issued, (akr) (Entered: 04/06/2020)
06/02/2020

21

ORDER of USCA as to 14 Notice of Appeal to the 9th Circuit filed by Carlos
Amezcua. Appellant's unopposed motion for an extension of time to file the

opening briefis granted. Briefing schedule issued. Any further motion for an
extension of time to file the opening brief is disfavored, (akr) (Entered:
06/02/2020)

PACER Service Center

Transaction Receipt
07/25/2020 15:04:00

PACER

Login:

Description:

charliekhouryjr
Docket Report

Billable

Pages:

Exempt flag:

4 of 4

Exempt

Client Code:

AMEZCUA

Search

3:18-cv-01317-GPC-

Criteria:

MSB

Cost:

0.40

Exempt

Exempt CJA

reason:

7/25/2020, 3:04 PM

